                                                                                 Legal Services Corporation
                                                                                 Ofice of Inspector General




Inspector General
Kirt West

      September 25,2006


      The Honorable Michael B. Enzi, Chairman
      Committee of Health, Education, Labor and Pensions
      United States Senate
      Washington, DC 20510

      The Honorable Charles E. Grassley, Chairman
      Committee on Finance
      United States Senate
      Washington, DC 20510

      The Honorable Chris Cannon, Chairman
      Subcommittee of Commercial and Administrative Law
      House Committee on the Judiciary
      United States House of Representatives
      Washington, DC 20515

      Dear Chairmen Enzi, Grassley, and Cannon:

      I am pleased to present the Legal Services Corporation (LSC) Office of Inspector
      General (OIG) report on certain fiscal practices at LSC.

      On March 3, 2006, 1 received your request that I review allegations concerning fiscal
      practices, conflicts of interest and general mismanagement at LSC. The letter refers
      allegations made in two anonymous complaints and also asks that I investigate both
      LSC President Barnett and the LSC Board regarding allocation of resources involving
      the use of taxpayer dollars for trips to foreign countries, first-class travel, travel from
      vacation homes, travel on non-LSC related business, and conferences held in well-
      known resort spots such as Puerto Rico. The letter also asks that I review whether the
      Board is paying excessive bonuses to President Barnett and whether the Board is
      allowing her to continue her involvement with lobbying organizations; further, the letter
      asks for a review of any and all payments made to the LSC President. Additionally, the
      letter requests that I review LSC's practice of hiring consultants and the resultant cost to
      the taxpayers, as well as LSC's settlement agreements with departing LSC employees
      and the cost associated with such settlements. Finally, the letter requests a review of
      possible conflicts of interest at LSC, including the activities of several current executive

                                                                               3333 K Street. NW 3rd Floor
                                                                               Washington, DC 20007-3522
                                                                               Phone 202.295.1660 Fax 202.337.6616
                                                                               www.oig.lsc.gov
Letter to Chairmen Enzi, Grassley, Cannon
Page 2
September 25, 2006


directors of LSC grantees who performed duties at LSC as Special Assistant to the LSC
President.

 During the course of this review, the OIG received additional allegations identifying
other potential irregularities warranting review. These were received from various
sources, including Congressional staff, current and former LSC employees (many of
whom requested whistleblower status), and members of the public.

This report presents an objective and thorough review of the fiscal issues outlined in the
request and the additional fiscal-related allegations received. During the course of the
review, the House committee on Appropriations indicated a preference for LSC to apply
federal government policies to its operational practices. House Report 109-520, Title IV,
p. 136 (June 22, 2006). For this reason, although federal spending policies do not apply
directly to LSC, we have identified the federal policies applicable to the issues reviewed
and the report includes the relevant policies in an appendix. Finally, the report also
includes recommendations for improving LSC fiscal policies.

We provided a draft copy of this report to the LSC Board and management. I am
pleased to notify you the Board and management responded positively to our report.
They have agreed to implement in substance all of the report's recommendations. In
some cases, they have already taken steps to do so, as noted in the final report.

The OIG is continuing its work on the allegations concerning potential conflicts of
interest and general mismanagement. We will report the results of that work upon its
completion.

I hope you find this report responsive to your request regarding LSC's fiscal practices.
Our goal, as always, is to provide information so that LSC can more effectively and
efficiently carry out its mission and so that the Congress, LSC and the American public
can be assured of the appropriate use of the federal dollars supporting legal assistance
to the poor.

Sincerely,


~ i rWest
     t
Inspector General

Enclosure

cc: The Honorable Melvin L. Watt
    The Honorable Edward M. Kennedy
    The Honorable Max S. Baucus
     LSC Board of Directors
     LSC President Helaine Barnett
LEGAL SERVICES CORPORATION

         OFFICE OF
    INSPECTOR GENERAL




 REPORT ON CERTAIN FISCAL
        PRACTICES
          AT THE
LEGAL SERVICES CORPORATION


      September 25, 2006
                             TABLE OF CONTENTS

EXECUTIVE SUMMARY ..............................................................................................................1

BACKGROUND ............................................................................................................................4

METHODOLOGY..........................................................................................................................5
I. BOARD MEETINGS ................................................................................................................. 6
          Costs Associated with Board Meetings/Selection Process ...............................................6
          D.C. Board Meetings at Melrose Hotel............................................................................10
          Board Dinners .................................................................................................................10
          Board Meetings in Resorts ..............................................................................................11
RECOMMENDATIONS...............................................................................................................12

II. TRAVEL ................................................................................................................................. 13
           LSC President’s Travel ................................................................................................... 13
           First Class Travel ............................................................................................................ 14
           Chauffeured Car Services............................................................................................... 16
           Lodging Waivers ............................................................................................................. 18
RECOMMENDATIONS............................................................................................................... 18

III. FOOD AND ENTERTAINMENT ...........................................................................................19
           Coffee/Soft Drinks/Water ................................................................................................ 19
           Holiday Dinner Cruises, Holiday Parties, Picnics, and Excursions ................................. 20
           Food Purchases .............................................................................................................. 21
           Meals for Others/Business Entertainment....................................................................... 22
RECOMMENDATIONS............................................................................................................... 22
IV. OTHER COSTS....................................................................................................................24
          Settlement Agreements with Departing Employees ........................................................24
RECOMMENDATIONS...............................................................................................................25
          Bonuses to the President/Locality Pay............................................................................25
RECOMMENDATION .................................................................................................................26
          Acting Special Counsel Costs .........................................................................................27

APPENDIX I................................................................................................................................28
A. Background on City Pair Contract and GSA Regulations..................................................... 28
B. Expenses Associated with President’s Travel to and from Multiple Residences.................. 29



                                                                       i
                              TABLE OF CONTENTS
                                                               (Continued)

C. Expenses Associated with President’s Outside Activities ..................................................... 31

D. Violation of Fly America Act Regulations ..............................................................................33

APPENDIX II...............................................................................................................................35

A. Board Meetings .....................................................................................................................36

           1. Using Rented Space to Hold Meetings ......................................................................36

           2. Contracting Practices .................................................................................................36

           3. Per Diem Allowance...................................................................................................38

           4. Paying for Guests.......................................................................................................47

B. Travel......................................................................................................................................49

           1. Airline Travel ..............................................................................................................49

           2. Fly America Act ..........................................................................................................50

           3. Car Service ................................................................................................................54

           4. Premium Travel ..........................................................................................................56

           5. Travel Expense Waivers ............................................................................................58

C. Food and Entertainment........................................................................................................61

           1. Working Meals ...........................................................................................................61

           2. Business Entertainment .............................................................................................62

           3. Coffee, Water and Miscellaneous Items ....................................................................63

           4. Picnics and Holiday Parties........................................................................................64

D. Other Costs ...........................................................................................................................66

           1. Severance Pay...........................................................................................................66

           2. Locality Pay................................................................................................................67

APPENDIX III – CONFIDENTIAL ATTACHMENT




                                                                       ii
                                  EXECUTIVE SUMMARY


In response to a Congressional request, the Office of Inspector General (OIG) initiated a
review of allegations concerning fiscal practices, conflicts of interest, and general
mismanagement at the Legal Services Corporation (LSC). This report presents our
findings with respect to certain LSC fiscal practices, including allegations of fiscal abuse
and wasteful spending. Other matters identified for review will be addressed in
subsequent reports.

With respect to many of the allegations, our review found spending practices that may
appear excessive and inappropriate to LSC’s status as a federally-funded non-profit
corporation, particularly in light of its mission in distributing taxpayer dollars to fund legal
services for the poor. We also found a number of transactions which did not follow
LSC’s own policies and a number which would be impermissible under the rules
governing federal agency spending. While generally those rules are not directly
applicable to LSC, they provide a familiar reference point for Congressional overseers
and the public. Our principal findings and recommendations are summarized below:

    •   We found the cost of food at Board of Directors meetings appeared excessive in
        some instances and should be reduced. In nine of the eleven Board meetings
        that we were able to examine, we found that the total cost of food was
        equivalent to more than 200 percent of the applicable per diem food allowance.
        We found lunch costs at the January 2006 Board meeting to be more than
        $70 per person, afternoon snack breaks costing as much as $27 per person,
        and a total hotel food cost (breakfast, lunch, and snacks) of $8,726 for the entire
        two-day meeting. We also found the contracting process for Board meetings
        was not in compliance with LSC’s own policies. LSC did not generally follow its
        competitive contracting practices in selecting a hotel venue for Board meetings
        or properly document the selection process or the justification for the selection.
        Finally, we found LSC could save thousands of dollars by holding its local,
        Washington, D.C., Board meetings at its headquarters rather than at a hotel.

    •   We found that the LSC Chairman’s authorization to allow the LSC President to
        travel to or from any of her homes in connection with official travel was contrary
        to the terms of the General Services Administration (GSA) travel contract and
        LSC’s obligations as a mandatory user thereunder. We also found that the LSC
        President’s use of a foreign air carrier violated GSA’s regulations implementing
        the Fly America Act, which LSC is contractually bound to follow. Further, we
        question the use of LSC funds to pay expenses associated with the LSC
        President’s continued service in various capacities with outside organizations
        with which she was involved prior to her selection as LSC President.




                                               1
   •   We found that LSC officials traveled first or business class in three instances. In
       one instance in 2005, the LSC Chairman traveled first class round trip from
       Atlanta, Georgia, to Washington, D.C. The first class ticket was less than a
       government ticket on the same flights. In a second instance in 2005, the LSC
       President traveled one-way first class to an international legal aid conference in
       Ireland at an additional cost to LSC. Instead of using the government fare
       initially booked, the President was ticketed full fare coach, allowing her to secure
       an immediate first class upgrade as a frequent flyer member, which would not be
       available immediately with a government ticket. Finally, an LSC Vice President
       traveled business class round trip to Melbourne, Australia, to attend the 2001
       International Legal Aid Conference. As the trip was well in excess of 14 hours, it
       appears that business class would have been authorized for this trip under the
       Federal Travel Regulation.

   •   We estimate that LSC spent over $100,000 on coffee, holiday parties and
       picnics, working lunches, and business entertainment, going back as far as
       August 2000. These expenditures did not violate LSC policy. While LSC is
       generally not subject to federal spending practices, these expenditures would be
       impermissible under those practices and we question whether many of them
       were reasonable and necessary, and whether they were appropriate for LSC.

   •   We found LSC has spent over $1 million in the past ten years in settlement
       agreements with departing employees.

We concluded that some of the allegations were unfounded, or could not be
substantiated. Specifically:

  •    We found no evidence of excessive or undisclosed bonuses or of other
       confidential or indirect payments by LSC to the LSC President. We found no
       evidence of any “secret deal” between the LSC President and the LSC Board of
       Directors.

          o We did find, however, that the LSC President has been receiving a
            “Locality Pay” supplement at a rate that is 1 percent of salary greater than
            that received by any other LSC employee, all of whom work in
            Washington, D.C. (The Inspector General also received locality pay with a
            1 percent differential for the first four months of his employment. This
            ended December 2004.) We questioned the propriety of such a payment.
            Locality pay rates by their nature are geographically based; under the
            federal system there would be no variation for an individual payee within a
            given area.

  •    We did not find unreasonable LSC’s justification for holding a Board meeting in
       Puerto Rico. LSC stated that it was appropriate to visit the largest LSC grantee
       and meet with various judicial officials and members of the bar who are involved



                                            2
        in promoting the delivery of legal services to low-income individuals in
        Puerto Rico.

    •    We did not find wide-spread first-class travel and found only one instance of
        questionable first-class travel.

    •   We did not find LSC spending practices violated any laws. However, we did find
        that LSC is not adhering to its contractual obligations under the GSA City Pair
        Contract, as well as instances where it is not following its own controls and
        procedures regarding spending, contracting, and travel.

Our overall recommendations to the LSC Board and LSC management include the
following:

    •   Undertake a comprehensive review to bring LSC’s spending policies and
        practices, particularly in the areas of travel, meals, meetings, and entertainment,
        in line with those applicable to federal agencies, and require that the Board
        review and approve any deviation from federal practice.1

    •   Review the overall cost of LSC Board meetings to determine whether there are
        ways to reduce costs. Also, require that LSC’s competitive requirements are
        followed in contracting for Board meeting locations.

    •   Provide training and education for LSC staff to ensure that all LSC policies are
        followed, particularly in the areas of contracting and the Federal Travel
        Regulation related to the GSA City Pair Contract.

    •   Review LSC employment policies and practices to determine if there are
        opportunities to reduce its potential liability, and review its settlement policies and
        practices to determine whether costs can be reduced and whether they are in the
        best interest of the corporation and appropriate expenditures of public funds.

LSC Response: The LSC Board and management responded positively to a draft copy
of this report. They have agreed to implement substantially all of the report’s
recommendations. In some cases, they have already taken steps to do so, as noted in
the specific recommendations within the report.




1
  We note that this recommendation is consonant with the language in the House report accompanying
LSC’s appropriation bill for fiscal year 2007, in which the Committee on Appropriations stated it
“…expects LSC to carefully review all of its operating procedures to determine if they are, in fact, in line
with other Federal agencies. If discrepancies emerge during this review, the Committee expects LSC to
proactively make modifications to its procedures.” House Report 109-520, Title IV, p. 136 (June 22,
2006).


                                                     3
                                    BACKGROUND


LSC is a private, non-profit corporation established by Congress in 1974 to help provide
equal access to the system of justice in our nation to those who otherwise would be
unable to afford adequate legal counsel by making financial support available to provide
high quality civil legal assistance. In establishing LSC, Congress explicitly recognized
“providing legal assistance to those who face an economic barrier to adequate legal
counsel will serve best the ends of justice, assist in improving opportunities for low-
income persons,” and that the availability of legal assistance “has reaffirmed faith in our
government of laws.”2 LSC has said, “The goal of providing equal access to justice for
those who cannot afford to pay an attorney remains the reason for LSC’s existence and
the benchmark for its efforts.”3

LSC’s statutory mission is to provide “financial support for legal assistance in non-
criminal proceedings or matters to persons financially unable to afford legal
assistance.”4 Pursuant to its mission, LSC funds 138 non-profit legal aid organizations
across the United States and its territories to address the most basic and critical civil
legal needs of the poor. Controlling statutes require that LSC choose grantees to
provide such legal assistance to the poor through a process of competitive bidding,5 and
also require LSC to ensure grantee compliance with applicable laws and implementing
regulations and guidelines, and to ensure the maintenance of high quality service.6
LSC is required to ensure that grant dollars are provided so as to make the most
economical and effective use of its taxpayer-provided resources in the delivery of legal
assistance to eligible persons.7

LSC is wholly funded through taxpayer dollars; its 2006 annual appropriation was
$326.6 million, including $12.7 million to support LSC headquarters operations (not
including the OIG). Given its mission as the principal provider of federal funds for legal
assistance to the poor and its status as a quasi-federal agency, it is reasonable to
expect that LSC management should conform to the highest standards with respect to
fiscal responsibility and accountability. Indeed, LSC, “[a]s a matter of principle, [is]
committed to being a careful and frugal steward of taxpayer funds [and declares that it
has] strict policies in place to ensure LSC funds are spent wisely and appropriately.”8




2
  LSC Act, 42 USC § 2996.
3
  Documenting the Justice Gap in America: A Report of the Legal Services Corporation (2005), p.1.
4
  LSC Act, 42 USC § 2996b(a).
5
  Pub. L. 104-134, § 503 (2005), incorporated by reference in Pub. L. 109-108 (2005).
6
  LSC Act, 42 USC §§ 2996d(b)(1)(A); 2996f(a)(1).
7
  LSC Act, 42 USC § 2996f(a)(3).
8
   Press Release - Legal Services Corporation (LSC) Response To Issues in CBS and AP News Stories.
August 17, 2006; p. 1.



                                            4
                                  METHODOLOGY


During the course of its review, OIG staff examined LSC documents and records. OIG
staff also interviewed LSC staff, LSC Board members, LSC contractor officials and
officials at selected Federal agencies. OIG staff researched applicable policies. As
required by professional standards, the OIG work was conducted with integrity,
objectivity and independence. Before this report was released, it was put through a
rigorous quality assurance process called independent referencing to ensure there is
documentary evidence supporting the report. A draft version of this report was provided
to LSC for comment and many comments have been incorporated into the report.

Because of the different issues included in the Congressional inquiry, we reviewed
documents that best matched the timeframe contained in the request. In addition, when
a specific timeframe was not included in the Congressional request, we exercised
judgment in selecting the timeframe to review.

In order to identify spending practices of LSC, we reviewed actual invoices, expense
transactions recorded in LSC’s financial data bases; LSC’s own documents and
manuals; information supplied by LSC to Congress; and had discussions with LSC
Board members, LSC staff and other individuals as appropriate. We exercised
judgment and made estimates where adequate, detailed information was not available.
In some instances, we relied on the information contained in LSC’s accounting data
bases for fiscal years 2003, 2004, 2005, and 2006 (through May 31, 2006), rather than
conducting a detailed review of all vouchers. We then relied upon representations by
the LSC Comptroller as to the reasonableness of the information contained in the
accounting data bases.

The OIG received full cooperation from both LSC management and the LSC Board in
terms of document and interview requests. There were understandable delays in
receiving documents from LSC management because LSC management was
assembling a large number of documents pursuant to a separate request from
Congress. The OIG also received copies of all documents submitted to Congress.
Although unavoidable, these difficulties contributed to delaying the issuance of this
report.




                                          5
We have analyzed the various allegations and will be reporting on them in four
categories: Board Meetings; Travel; Food and Entertainment; and Other Costs.


I.      BOARD MEETINGS

        Costs Associated with Board Meetings/Selection Process

The LSC Board of Directors is required to hold four meetings per year.9 The annual
meeting is typically held in Washington, D.C., in January. For the period January 2004
through July 2006, the OIG reviewed the cost of the Board of Directors meetings and
reviewed LSC’s process for selecting the hotel venues for the meetings. The Board
held the three annual meetings occurring during the review period in Washington, D.C.;
the Board held the other nine meetings reviewed in various locales throughout the
country. Each Board meeting is normally two days long. The OIG reviewed the twelve
meetings of the Board of Directors occurring during this period.10

LSC management is responsible for arranging the logistics for Board meetings. LSC
management presents the Board with a proposed list of meeting locations for its input
and approval. Because the LSC Board does not have any full time staff, its members
rely on management to make the final arrangements for the meetings once the Board
approves the meeting location. After receiving Board approval, LSC management under
the direction of President Barnett makes all necessary arrangements, including
selecting the hotel; finalizing the contract; and selecting the menu for the meals and
snacks/beverages to be provided during the meeting.

Once a hotel venue is selected for the Board meeting, LSC generally contracts for the
hotel to provide breakfast and lunch to attendees as a group. Dinner for members of
the Board is arranged by LSC, generally at an off-site restaurant. When meals are
provided, LSC policy requires a reduction of the applicable per diem expense that LSC
travelers may request as reimbursement.11 Federal agency travelers follow similar
rules. See Appendix II, § A.3.

        •   The cost of food at Board meetings appeared excessive in some instances,
            greatly exceeding the applicable LSC per diem allowance, and could be
            reduced.



9
  42 USC § 2996(h)
10
   The OIG did not review meetings solely of Board Committees, nor did we review telephonic Board
meetings.
11
   According to LSC policy, when meals are provided to a traveler by a host or a hotel, the meal
allowance should be reduced by $5 per meal. For example, if the meal allowance for a location is $45
and both breakfast and lunch is provided to the traveler, the reduced meal allowance for that day would
be $35. As of July 2006, LSC amended the Administrative Manual to adopt the meal allowance
reductions used by the federal government.



                                                    6
           o The total cost of food at Board meetings, including Board dinners,
             exceeded the per diem allowance by as much as $120 per person per
             day. In nine of the eleven Board meetings that we were able to
             examine,12 we found that the total cost of food was equivalent to more
             than 200 percent of the applicable per diem allowance. See Chart on
             page 9.

           o The daily cost of hotel food per person, not including dinners, ranged from
             $2013 to $133. The cost of the particular food items selected contributed to
             the high cost per person. For example one lunch meal cost $70.80 per
             person (including a 20 percent service charge). For another lunch, the
             cost was $60.50 per person. In two instances, the cookie and beverage
             service for the afternoon break cost more than $1,000, with per person
             costs of approximately $21 and $27.14

           o The overall costs of hotel food and beverages have been generally rising
             since the January 2004 meeting, ranging from $4,661 and reaching a
             peak in the first two meetings in 2006, $8,726 in January and $9,035 in
             April 2006. Several factors contributed to these costs, including the cost
             of the menu item served, the number of people attending the meals, and
             the inclusion of snack food with the afternoon beverage break. LSC did
             significantly reduce the overall food cost of its July 2006 Board meeting,
             spending $4,000 less than it did in April 2006, although the cost per
             person was still equivalent to approximately 200 percent of the applicable
             per diem.

       •   The contracting process for Board meetings generally was not in compliance
           with LSC policy.

           o LSC policy requires the competitive selection of contracts for those over a
             specified minimum amount. Although the cost of Board meetings
             exceeded that specified amount, our review of contracting records
             indicated there was often a failure to conduct adequate competition or to
             document the reasons for the lack of competition, as required by LSC
             policy.




12
   The OIG was unable to conduct a detailed review of the food costs for the September 2004 Board
meeting because LSC did not provide adequate data to permit the necessary calculations. The
September 2004 meeting, therefore, is not included in this analysis.
13
   The reason for the low cost in this case was that for the day in question, the hotel only provided
breakfast beverages for a bus ride in connection with an early-morning visit to an LSC grantee.
14
   Typically at Board meetings, 30 to 40 persons are in attendance.


                                                 7
            o Even when LSC obtained quotes on the cost of sleeping rooms, the lowest
              price was not selected in some instances, as required by LSC policy.15
              LSC did not document the rationale as to why the low quote was not
              selected, except in one instance, Our review of the selection process for
              the Board meetings disclosed that LSC did not solicit quotes in four
              instances and we could not determine whether LSC solicited quotes in two
              other instances. In the six instances LSC did solicit quotes, the lowest
              quote was selected three times,16 the lowest quote was not selected in two
              instances, and in one instance, a hotel that did not submit a quote was
              selected.17

        Other LSC contracting policies were not followed. Since February 2005, LSC
        policy requires that prior to contract award, contracts are provided to the
        Comptroller and the Office of Legal Affairs for review. LSC officials did not,
        except in one instance, provide the contracts to the Treasurer and Comptroller
        (Comptroller) for review prior to selecting the hotel.

        Federal agency contracting practices for similar acquisitions are found at
        Appendix II, § A.2.




15
   Prior to February 2005, LSC policy required the selection of the lowest bidder or a documented
justification if the lowest bidder was not selected. Since that date, policy requires the selection on the
basis of best value to LSC and requires documenting the basis for contractor selection. LSC did not meet
either requirement.
16
   In one instance the lowest quote was not selected because only one hotel was available for the
preferred meeting dates. We counted this as one of the three instances that the lowest quote was
selected.
17
   When comparing the rate received to the rates quoted by the other hotels, the hotel who received the
contract would have submitted the second highest quote of the four received.


                                                    8
                   Total Daily Food Costs to LSC, Including the Cost of Board Dinners,
                                      Compared to GSA M&IE Rate

                                                     Total
                                                     Daily                 Amount per
                                                     Food                  Person Over   Total Daily Food Costs
                     Meeting                       Costs per    GSA M&IE    GSA M&IE     Compared to GSA M&IE
                                                           18
        Location      Date       Name of Hotel     Person         Rate         rate               Rate

Washington, DC        1/30/04    Melrose Hotel      $134.55      $51.00      $83.55             263.82%

Washington, DC        1/31/04    Melrose Hotel      $116.42      $51.00      $65.42             228.27%

Baltimore, MD         4/30/04    Hyatt Regency      $58.63       $47.00      $11.63             124.74%

Baltimore, MD          5/1/04    Hyatt Regency      $154.39      $47.00      $107.39            328.50%

Omaha, NE              6/4/04   Hilton of Omaha     $69.74       $43.00      $26.74             162.19%

Omaha, NE              6/5/04   Hilton of Omaha     $64.64       $43.00      $21.64             150.33%

Cincinnati, OH       11/19/04     Westin Hotel      $133.67      $51.00      $82.67             262.11%

Cincinnati, OH       11/20/04     Westin Hotel      $151.81      $51.00      $100.81            297.66%

Washington, DC         2/4/05    Melrose Hotel      $159.60      $51.00      $108.60            312.94%

Washington, DC         2/5/05    Melrose Hotel      $125.40      $51.00      $74.40             245.88%

San Juan, PR          4/29/05     Caribe Hilton     $136.53      $57.00      $79.53             239.53%

San Juan, PR          4/30/05     Caribe Hilton     $145.74      $57.00      $94.74             255.68%

Monterey, CA          7/28/05    Hyatt Regency      $158.06      $47.00      $111.06            336.30%

Monterey, CA          7/29/05    Hyatt Regency      $114.92      $47.00      $67.92             244.51%

Monterey, CA          7/30/05    Hyatt Regency      $128.40      $47.00      $81.40             273.19%

Boise, ID            10/28/05     Grove Hotel       $95.91       $49.00      $46.91             195.73%

Boise, ID            10/29/05     Grove Hotel       $96.21       $49.00      $47.21             196.35%

Washington, DC        1/27/06    Melrose Hotel      $124.20      $64.00      $60.20             194.06%

Washington, DC        1/28/06    Melrose Hotel      $158.80      $64.00      $94.80             248.13%

St. Louis, MO         4/28/06   Chase Park Plaza    $179.12      $59.00      $120.12            303.59%

St. Louis, MO         4/29/06   Chase Park Plaza    $161.70      $59.00      $102.70            274.07%

Providence, RI        7/28/06     Westin Hotel      $113.56      $54.00      $59.56             210.30%

Providence, RI        7/28/06     Westin Hotel      $121.59      $54.00      $67.59             225.17%




   18
     Total daily food costs per person includes the cost of snack/beverage breaks. These are not normally
   charged against the M&IE for individuals attending a conference under federal per diem rules. The
   purpose of this chart is to reflect all of LSC funds that were spent on food items.


                                                       9
       D.C. Board Meetings at Melrose Hotel

       The LSC Board of Directors typically holds its annual meeting (one of four
       required quarterly meetings) in Washington, D.C. For the period of our review,
       calendar years 2004-2006, the LSC Board has held the annual Board meeting at
       the Melrose Hotel. Although LSC has stated that the Melrose is convenient to
       LSC’s headquarters, it has been selected without competitive process, and costs
       have increased significantly. LSC could save thousands of dollars by holding its
       annual Board meeting at its Washington, D.C., headquarters, and should
       consider doing so. Federal agencies are authorized to use appropriated funds to
       rent non-Government space when other suitable space can not be found. See
       Appendix II, § C.4.

       The costs at the Melrose have steadily increased over the past three years
       primarily due to food costs. LSC’s food costs at the Melrose have risen from
       $4,661 in 2004 to $8,726 in 2006, an 87 percent increase. Lunch menu
       selections have increased in cost from a daily total average of $1,218 ($40.48
       per person) in January 2004, to a daily total average of $2,413, ($55.80 per
       person) in January 2006. (Under the federal per diem system, the current meal
       allocation in the Washington, D.C., area for lunch is $18.) The cost of an
       afternoon break has risen from a daily total average of $545 ($18.18 per person)
       in January 2004, to a daily total average of $996 ($26.90 per person) in 2006.
       We question whether these expenditures are reasonable and necessary, and
       appropriate for LSC.

       The OIG also questions LSC’s stated justification for why it cannot hold its annual
       Board meeting in its headquarters building.19 In a June 30, 2006, letter to
       Congress, LSC stated that the space in the LSC headquarters “does not have
       the same array (in both size and number) of meeting rooms as a full-service
       hotel, and lacks the kind of privacy for executive session meetings that is
       available at the Melrose.”   For all three years, both LSC Board committee
       meetings and the LSC Board meeting were held in a 1,158 square foot room
       (Potomac I and II) at the Melrose. However, LSC headquarters has a slightly
       larger 1,200 square foot conference room, along with several other smaller
       conference rooms. LSC also stated that the LSC headquarters building “lacks
       ovens, stoves and other appliances used in connection with the catering of
       meals.” However, LSC has held catered events in its headquarters building.

       Board Dinners

       In February 2005, LSC instituted a policy that automatically granted members of
       the Board of Directors a waiver from the normal per diem limitation for meals,
       allowing them to claim reimbursement for actual cost of up to 200 percent of the
       per diem rate when attending a dinner with a number of Board members. While

19
  The September 2005 and 2006 Finance Committee meetings were held at LSC’s headquarters. The
September 2006 meeting was followed by a full Board meeting.


                                              10
        the policy only addressed the members of the board, LSC’s practice was to apply
        the increased meal rate to all individuals who attended the dinner, even those
        who were not entitled to per diem. In unusual circumstances federal travelers
        are eligible for a waiver of up to 300 percent for food as well as lodging. See
        Appendix II, § A.3. For example, some individuals who have attended Board
        dinners were LSC staff not in a travel status, non-LSC personnel, and family of
        Board members, none of whom normally are entitled to reimbursement.

        During the period June 2004 through January 2006, LSC paid for 15 dinners at
        eight Board meetings at a cost of $9,471. For 12 of the 15 dinners,
        documentation supporting travel expense reports identified who attended the
        Board dinners. For those 12 dinners we calculated that:

        •   LSC paid for Board members (including the LSC President) $2,187 more than
            would have been paid under a single per diem ceiling; and

        •   LSC paid an additional $1,487 for Board family members, non-LSC officials,
            LSC officials who were not in travel status, and LSC officials in travel status
            whose expenses exceeded the per diem allowance.

        Expenditures for family members and guests are generally not authorized under
        Federal appropriations. See Appendix II, § A.4.

        In July 2006, LSC eliminated the 200 percent provision for Board dinners and
        Board members now receive the same per diem as other LSC staff. 20

        Board Meetings in Resorts

        The only location where the current LSC Board has met in a location that likely
        could be described as a well-known resort area is the May 2005 meeting in
        Puerto Rico. The LSC has justified its selection of Puerto Rico for a Board
        meeting on the basis that the Board had not previously visited the Puerto Rico
        program, the largest LSC grantee, and the Board had the opportunity to meet
        with various judicial officials and members of the bar who are involved in
        promoting the delivery of legal services to low-income individuals. We do not find
        LSC’s justification unreasonable.


20
   During the course of this review, LSC management notified Congress that it is eliminating the 200 per
cent provision. In its notification, LSC management cites GSA regulations that allow reimbursement of up
to 300 percent of per diem for actual expenses when meals are arranged at a prearranged place, such as
a hotel where a conference is held. It is our opinion that Board dinners held during the period of our
review would not fall into this category for two reasons. First, LSC has total control over the Board
meetings unlike attending a conference arranged by an outside organization. Second, the Board dinners
were not usually held at the hotel where the Board meeting was held. We do not believe that the GSA
provisions were enacted to allow travelers to eat expensive meals simply because they so choose.
Rather, we believe the provisions are to aid travelers, who when situations are out of their control, must
spend more than the standard rates allow.


                                                   11
                            RECOMMENDATIONS

1. LSC management should consider lower-cost options for food in connection
   with Board meetings, and consider the need for and appropriateness of such
   expenditures.

   •   LSC Management has indicated that steps have already been taken to
       reduce costs and that this recommendation will be implemented.

2. The LSC Board should consider holding its annual Board meeting at LSC
   headquarters.

   •   LSC agreed to implement this recommendation. On September 22, 2006,
       the LSC Board voted to hold its January 2007 Board meeting at LSC
       headquarters. Management indicated that it will evaluate the results and
       report to the Board.




                                   12
II.    TRAVEL

       LSC President’s Travel

       The following summarizes the OIG examination of a number of issues involving
       travel by the LSC President. The detailed analysis can be found in Appendix I.

       •   The LSC Board Chairman’s authorization allowing President Barnett to travel
           to or from any of her homes in connection with official travel was contrary to
           the terms of the GSA City Pair Contract and LSC’s obligations as a
           mandatory user thereunder.21 Under the Federal Travel Regulation travel
           includes only local travel (for LSC, the D.C. area) or travel to and from a
           temporary duty location, which is a place away from an employee’s official
           station. See Appendix II, § B.1 for airline travel rules. Any travel by President
           Barnett to or from any of her homes outside Washington, D.C., would be
           deemed personal travel and not official travel (unless she was performing a
           temporary duty assignment in the location of that other home). The Chairman
           did not have the authority to negotiate a contract that is contrary to LSC’s
           obligations under the regulations and its contracts with Omega World Travel
           and GSA. As a result, LSC’s actions did not adhere to the terms of the GSA
           City Pair Contract when the Chairman authorized personal travel at contract
           rates. See Appendix I, § A, Expenses Associated with President’s Travel to
           and from Multiple Residences.

           President Barnett has announced that beginning April 1, 2006 she has
           requested and will continue to request reimbursement for her return from
           business trips on a Friday evening or Saturday, regardless of which residence
           she returns to, only in an amount equivalent to the cost of a government rate
           return to Washington, D.C., but no more than what she personally paid to
           return to her residence. In view of this, no recommendation on this issue is
           being made.

       •   From January 2004 through March 2006, the LSC President traveled 21 times
           to and/or from a residence other than her Washington, D.C., residence. For
           8 of the 21 trips, the President completed a cost comparison at the time of the
           trip and reimbursed LSC for any increased costs incurred.22 At the time of the
           trip, cost comparisons were either not completed or not documented in the
           travel files for the remaining 13 trips. As a result, LSC may have incurred
           additional travel costs that would not have been incurred had all trips been
           based on travel to and from her Washington, D.C., residence.


21
   LSC has been a mandatory user of the GSA City Pair program and as a participant in the program has
contractually agreed to follow applicable GSA travel regulations.
22
   LSC has indicated that cost comparisons on all 21 trips have subsequently been completed and
submitted in response to a request from Congress.


                                                 13
       •   President Barnett’s trip returning from Ireland on a foreign air carrier appears
           to have been in violation of the regulations implementing the Fly America Act
           which LSC is required to follow as a mandatory user of the City Pair Contract.
           See Appendix I, § C, Violation of Fly America Act Regulations.

       •   President Barnett’s employment contract contains a provision that authorizes
           her to continue to serve in various capacities with several organizations with
           which she was involved prior to her selection as LSC President, but it does
           not authorize payment of expenses in connection with these activities. The
           Chairman authorized reimbursement of all travel expenses associated with
           the President’s approved outside activities. While permitting the President to
           spend some ancillary time on outside activities certainly may be appropriate,
           paying expenses for her work for such activities (e.g., the Historical Society of
           the Court of the State of New York) would seem to stretch the limits of the
           purpose of Congressional appropriations for LSC.23 A fundamental precept of
           federal appropriations law is that funds may be spent only for the purposes for
           which they were authorized and appropriated. 31 U.S.C. §1301(a). The OIG
           believes that a direct LSC business need should be used to determine
           whether or not travel expenses for a specific trip should be reimbursed. While
           some of the trips may have a direct LSC business reason, for example, if the
           President is representing LSC’s position on matters coming before the
           organizations, some may not. LSC’s Administrative Manual states, “Only
           travel which is appropriate to accomplish LSC business shall be authorized
           and approved.” See Appendix I, § B, Expenses Associated with President’s
           Outside Activities.

       First Class Travel

       LSC policy requires coach class travel unless approved in advance by the LSC
       President or Inspector General, as applicable. LSC’s contractual obligations
       under the GSA contract allow first class travel when the agency specifically
       approves the accommodation under specified criteria. See Appendix II, § B.4.
       LSC has reported to the Congress on all known first/business class trips. Three
       trips were identified:

       •   Chairman Frank Strickland—First Class Travel to/from Atlanta, Georgia.

       •   LSC President Helaine Barnett—First Class Travel to Shannon, Ireland.

       •   Former Vice President Randi Youells—Business Class Travel to/from
           Melbourne, Australia.



23
   President Barnett is currently affiliated with only two of the organizations originally cited in her
employment contract: the American Bar Association and the Historical Society of the Court of the State
of New York.


                                                  14
Chairman Strickland.        A round-trip first class ticket was purchased for
Chairman Strickland to travel from his home city, Atlanta, to Washington, D.C.,
on LSC business; the fare for the trip was less then the available government
fare. According to email correspondence, Chairman Strickland initiated the
events that led to the purchase and use of a first class ticket. He was
uncomfortable with the only seats available on flights that LSC initially found for
him through the GSA contract. He requested that LSC call the airline on his
behalf to request an upgrade. LSC found that an upgrade was not available and
that only window and center coach seats were available; LSC had window seats
assigned for the round trip. In the meantime, Chairman Strickland found that
through the Internet he could book a first class ticket on the same flight at less
cost than the original coach class government ticket—$508.40 for first class
compared to $540.40 at the government coach fare. He communicated this
information to an LSC official who noted that the coach class tickets had not
been purchased. LSC then asked the Chairman whether he wanted to purchase
the first class tickets directly or have LSC do it. The Chairman responded in a
subsequent email that he purchased the tickets (later reimbursed by LSC) and
that the airline did not charge for the change in seating; LSC cancelled the coach
class reservations at no charge.

President Barnett. President Barnett traveled on an upgraded first class ticket
from Washington, D.C., to Killarney, Ireland, to attend the International Legal Aid
Group Conference on June 8-10, 2005. Although President Barnett was initially
booked at a government fare for her trip to Ireland, President Barnett did not fly
at a government airfare for this trip. Rather, a full fare coach, non-government
ticket was purchased for President Barnett, allowing her to secure an immediate
first class upgrade as a Continental Airlines OnePass frequent flyer member,
which would not be available immediately with a government ticket. The full fare
coach ticket was more expensive than the government fare, resulting in
additional cost to LSC. President Barnett incurred over $1,000 in additional costs
which appeared unnecessary or excessive in connection with her trip to Ireland.
These will be reported on in detail as part of a separate investigative report on
matters relating to that trip. Although that report has not yet been completed,
President Barnett has committed to personally paying any reasonable estimate
the OIG provides of the additional costs to LSC.

Former Vice President Randi Youells. Vice President Randi Youells traveled on
a round-trip, business class ticket from Washington, D.C., to Melbourne,
Australia, to attend and speak at the International Legal Aid Group 2001
Conference. Travel was from June 9–20, 2001 and the business class ticket cost
$8,183.26.     Under the GSA City Pair Contract, business class airline
accommodations may be used when the agency specifically approves the
accommodation under specified criteria. One of the specified reasons is when
the origin and/or destination are outside of the continental United States, and the
scheduled flight time, including stopovers and change of planes, is in excess of
14 hours. Flying time to Melbourne, Australia from Washington, D.C., is over 20



                                    15
        hours. It appears that at the time of the trip to Australia, business class would
        have been authorized.


                                      RECOMMENDATIONS

        3. LSC should follow the federal policies with respect to first class or business
           class travel, and should ensure its policies and practices are consistent with
           its GSA contract obligations.

            •   Management has indicated that criteria similar to those by which federal
                agencies decide when to approve first class or business class travel will
                be added to LSC’s policy.

        Chauffeured Car Services

        LSC reported that, in the past year, it has paid for the use of chauffeured car
        services24 by LSC officials on the following occasions:

        •   Four round trips by the LSC Board’s Vice Chair between Charlottesville,
            Virginia and Washington, D.C., to attend meetings at costs ranging from $480
            to $558 per trip.

        •   One day of chauffeured car service for the Chairman and LSC President to
            attend meetings and memorial services in the immediate Washington, D.C.,
            area at a cost of $424.

        •   One day trip by the LSC President from Washington, D.C. to Harrisburg,
            Pennsylvania, to attend a memorial service for a former LSC Board member
            at a cost of $400.

        •   One day in New York City during which the LSC President and LSC officials
            used a car service for two local trips to attend meetings and an award
            ceremony at a cost of $49.

        The Comptroller approved in advance a request, including a justification for use,
        for the chauffeured car service for the Vice Chairman’s first Charlottesville,
        Virginia-to-Washington, D.C. trip, as required by LSC policy. The Comptroller did
        not approve in advance the car service for her three subsequent Charlottesville,
        Virginia-to-Washington, D.C. trips, however LSC officials did indicate that they
        analyzed the cost of the car services using the same parameters as were used to
        justify the first request (cost comparison with airfare). When interviewed, the
        Vice Chairman stated that other less-expensive modes of transportation were

24
  “Chauffeured car service” refers to hiring a car and driver from what are typically called limousine
companies. We are not referring here to the use of taxis or equivalent in the normal course of business.


                                                  16
considered but not selected because of safety concerns with driving at night in an
unfamiliar major city and the need to work during the trips. The request and
analysis only compared the cost to airfare. There was no documented
information about other, less-expensive modes of transportation, such as Amtrak,
as required by LSC policy.

In arranging local transportation for the Chairman to attend meetings with
Congressmen and memorial services for a former LSC President in the
immediate Washington, D.C. area, LSC management officials did not follow
LSC’s policy on local travel. The cost of buses, streetcars, subways, taxicabs,
and personal automobiles are reimbursable for local travel.         The use of
conveyances other than those specifically mentioned in the directive, which
chauffeured car services is not, must be approved in advance by the Comptroller.
In this case, LSC officials did not seek advance approval by the Comptroller.

The purpose of the President’s one-day trip to Harrisburg was to attend and
speak at the funeral of LSC’s longest serving Board member as a representative
of LSC and the Board. In arranging transportation for this trip, neither a request
for approval nor information about less expensive modes of transportation was
submitted in advance to the Comptroller as required by LSC policy.
Management has indicated that the information was provided at the time a
request for reimbursement was submitted, and that it was not questioned by the
Comptroller. In addition, the President recently indicated to the Inspector
General that she is not comfortable driving long distances and that she never has
been.

The LSC and comparable Federal policies on using car services are found at
Appendix II, § B.3.

                         RECOMMENDATIONS

LSC should:

4. Specifically, address the use of chauffeured car services in LSC’s
   Administrative Manual by:

   a. Providing examples of the limited circumstances when chauffeured car
   services may be permissible; and

   b. Requiring that approval requests be submitted in advance of the trips and
   that they document why less costly modes are not used.

      •   Management has stated that the limited circumstances under which
          car services can be used will be addressed in its Administrative
          Manual.




                                    17
        Lodging Waivers

        LSC travel rules limit Board members to the same lodging rates applicable to all
        LSC employees. LSC policy permits the maximum rate limitation to be waived
        under special circumstances. Federal agency travelers also can receive waivers.
        See Appendix II, § B.5. In the last 5 years, 29 waivers have been granted for
        lodging costs related to Board meetings.25 These waivers authorized the
        incurrence of over $13,500 in lodging costs in excess of the GSA maximum26 for
        these meeting for Board members, LSC employees, and invited guests.
        However, only 5 of the 29 waiver requests were submitted to the Comptroller
        prior to the start of travel as required. In addition, only one of the waiver requests
        explained the circumstances justifying the requested waiver, as required by LSC
        policy.

                                          RECOMMENDATIONS

        LSC should take the following actions:

        5. Revise its Administrative Manual to provide guidance regarding the
           circumstances under which a lodging waiver request would be appropriate
           and that the circumstances be documented.

                •   LSC management has indicated that the requirement for more
                    information for lodging waivers has been implemented and that this
                    practice will be included in the Administrative Manual.

        6. Enforce the requirements for obtaining pre-approvals for lodging waivers.

                •   In July 2006, management announced its intention to enforce
                    requirements for pre-approval for lodging waivers and has stated that
                    the policy has been rigorously enforced since then.




25
   The 29 waivers were for 27 trips. Waiver requests listed all individuals staying at the same hotel. On
two trips, Board members stayed at separate hotels which required separate waiver requests.
26
   The $13,500 represents the amount of lodging costs that exceeded the greater of LSC’s or GSA’s
maximum rates. This methodology was used because prior to February 2005 LSC’s maximum lodging
rate was set at or below $115 per night, which was typically lower than GSA’s rates. We believe the
higher GSA rates generally reflected a more reasonable cost of lodging for the period prior to February
2005, and the use of the higher of the two rates would produce a more reasonable estimate of the extra
cost of lodging due to waivers.


                                                  18
III.   FOOD AND ENTERTAINMENT

       The OIG examined LSC expenditures regarding the general area of the purchase
       of food and payment of entertainment expenses. None of the expenditures
       reported below violated LSC policy, although a number of such expenses would
       not be authorized under federal appropriations law. We question whether many
       of these expenses are reasonable and necessary, and appropriate in light of
       LSC’s mission in distributing federal funds to support legal services for the poor.

       Coffee/Soft Drinks/Water

       LSC spent over $47,000 from October 2002 through May 2006 to provide coffee,
       tea, hot chocolate, related supplies and paper products for all LSC staff
       (including OIG staff); soft drinks and water for the executive offices; and flowers,
       plants, and fruit baskets to express support for employees. These expenditures
       are generally not authorized under federal appropriations. See Appendix II,
       § C.3.

       •   Coffee and Supplies for Employees. LSC spent approximately $43,300 on
           coffee, tea, hot chocolate, and related supplies (cups, paper plates,
           sweeteners, cream, and plastic-ware), for use by all LSC staff.

       •   Soft Drinks and Water for Executive Offices. From October 2002 through
           May 2006, $1,055 was spent buying soft drinks and water for personnel in the
           executive offices. During an interview on the subject with the Comptroller, we
           discovered that additional soft drinks and water were purchased for the
           executive offices using petty cash funds. We did not attempt to quantify the
           amount purchased using petty cash because of the extensive review that
           would have to be made of all petty cash vouchers to identify the specific
           purchases.

       •   Plants, Flowers, and Fruit Baskets. LSC charged $2,730 for plants, flowers
           and fruit baskets from October 1, 2002 through May 31, 2006, according to
           the financial records. The flowers and fruit baskets were for the most part
           purchased as expressions of support for employees who had a significant
           personal event such as surgery or a death in the family. While this practice
           may not be unusual for private corporations and is certainly well motivated,
           we note that such expenditures ordinarily are not permitted under federal
           spending rules; within the federal government, these expenses are usually
           handled through voluntary employee contributions.




                                            19
       Holiday Dinner Cruises, Holiday Parties, Picnics, and Excursions

       LSC has spent over $40,000 over a six-year period on holiday dinner cruises,
       holiday parties, picnics, and trips to amusement parks for LSC staff, OIG staff
       and family/guests.27 While these activities are intended to be morale boosting,
       they have no direct connection to providing funding or oversight for the delivery
       of legal services. The cost figures shown do not include the cost of duty time to
       plan and attend these events (some apparently took place during working hours).
       In addition, these expenditures are generally not authorized under federal
       appropriations. See Appendix II, § C.4.

       Holiday parties have gone down in cost since December 2002 (the last dinner
       cruise). Holiday party costs for 2004 were $1,238.6028 (including $780 for
       umbrellas given to staff as holiday gifts) and for 2005 were $1,015. These costs
       do not include employee contributions. The last picnic was August 2003.

       For the period August 2000 through December 2005, LSC has spent
       approximately $40,800 on holiday events and picnics (see attached schedule).

           •   Holiday Dinner Cruises/Holiday Parties                                  $23,226

           •   Picnics/Excursions                                                      $17,649
               (including visits to Six Flags and Kings Dominion)

        The figures shown above are based on the numbers reported to us by
        management and our review of the supporting invoices, also provided by
        management. See Chart on page 21.




27
   For trips to amusement parks and picnics, LSC paid the cost for staff and for one family member/guest
per employee. Additional family members/guests were paid for by the employee.
28
   In the fall of 2004, the new Inspector General learned that LSC had budgeted $5,000 for the December
holiday party for a banquet at a local hotel. He raised his concern with LSC President Barnett that such
expenditure might not be appropriate. President Barnett discussed the issue with the LSC Holiday Party
organizing team; they elected to have a potluck lunch at LSC headquarters. President Barnett, the
Inspector General, and other members of LSC staff personally contributed money to help defray costs of
the party. As a result, LSC expended far less in taxpayer funds than the $5,000 that originally had been
allocated.



                                                  20
                             HOLIDAY PARTIES AND PICNICS
                                                                       Holiday
   Date                           Description                          Parties       Picnics
 08/15/00      2nd Annual Softball and Volleyball Tournament                         $6,589.22
 12/14/00      Holiday Dinner Cruise on the "Spirit of Washington"     $6,365.00
 06/21/01      LSC picnic at Six Flags of America                                    $1,581.84
 12/20/01      Holiday Dinner Cruise on the "Odyssey III"              $9,281.25
 08/29/02      Picnic at Kings Dominion                                              $4,039.74
               Holiday Reception at the Hotel Washington
 12/19/02      6-8pm                                                   $4,478.00
 08/21/03      Picnic at High Point Farm (Egan Barbecuers)                           $5,438.77
 12/11/03      Holiday Reception at the LSC HQ 3rd Floor                $848.98
 12/16/04      Holiday Luncheon                                        $1,238.60
 12/15/05      Holiday Luncheon                                        $1,015.04
               Totals                                                 $23,226.87    $17,649.57
                                GRAND TOTAL                                                       $40,876.44


       Food Purchases

       LSC is spending thousands of dollars purchasing food for its employees and
       others for working lunches and for meetings, conferences and seminars.29
       These expenditures are generally not authorized under Federal appropriations.
       See Appendix II, § C.1. The rate of such expenditures has been increasing over
       the last two years.

       •    According to the description in the accounting data bases, for the period
            October 2002 through May 2006, LSC spent over $14,000 on food for
            breakfasts, lunches, and snacks for LSC staff members not in a travel status,
            and for consultants and other individuals attending meetings. In reviewing
            accounting data base records that either indicated that food was purchased or
            that items were purchased from a specific restaurant, LSC spent:

            o $11,255.33 for LSC employees’ working lunches and for food expenses
              for LSC employees at seminars and conferences at LSC offices;

            o $1,294.63 for individuals who attended LSC sponsored conferences who
              were neither employees nor contractors; and

            o $1,497.77 for food for consultants.



29
  To the extent we were able to identify in the accounting data bases food purchases associated with
events such as Black History Month, Asian-American Month, Take a Child to Word Day, and similar
events, we excluded those expenditures from our totals.



                                                  21
                           Food Purchases by Fiscal Year

                                                          Total
                                       Number of
                   Fiscal Year                           Annual
                                      Occurrences
                                                          Cost
                      2003                  31         $ 2,790.74
                      2004                  30         $ 2,573.44
                      2005                  33         $ 4,223.53
                      2006                  22         $ 4,460.02
                (thru May 31, 06)
                            Total           116        $14,047.73

NOTE: Two of the purchases were for the OIG—one for food costs of $104.68 in
FY 2004 for an open house for all LSC employees to become familiar with the new
IG and to start building relationships with the LSC staff. The other was for $68 in
June of FY 2003 associated with the move to 3333 K St.

  Meals for Others/Business Entertainment

  Congress specifically requested the OIG to look at the expenditures by the LSC
  President. From January 2004 through March 2006, the LSC President
  submitted claims on Travel Expense Reports on 34 occasions for meals provided
  to others. The total amount claimed was $3,697. The number of people
  attending the meals ranged from 2 to 11. Attendees at the meals included such
  people as LSC employees, local bar officials, jurists, LSC grantee staff, and in
  two instances, spouses of grantee staff members. Approximately $2,639 was
  incurred for meals for non-LSC officials and LSC employees who were not in
  LSC travel status and for which an LSC business purpose would be required.
  Although there is nothing to suggest the expenses were not for a business
  purpose, except in two cases documentation supporting the claims did not clearly
  indicate the purpose. These expenditures did not violate LSC policy. However,
  these expenditures are generally not authorized under federal appropriations.
  See Appendix II, § C.2. Although we did not look at the expense reports of past
  LSC Presidents, we would note that past Presidents have also incurred such
  expenses.

                                 RECOMMENDATIONS

  7. LSC should undertake a comprehensive review to bring LSC’s spending
     policies and practices, particularly in the areas of travel, meals, meetings, and
     entertainment in line with those applicable to federal agencies.

      •   LSC management has stated that it has already informed the House and
          the Senate Appropriations Committees that it will undertake a review of
          LSC policies to see where they differ from federal policies and that it will
          make appropriate modifications.


                                       22
8. The Board should require that it be advised of and specifically approve any
   policies and practices in those areas which are different from federal practice.

      •   LSC has indicated that the Board will determine the nature of the
          review it will conduct and/or whether it wants a briefing by
          management on the areas where LSC policies and practices differ
          from federal.    (The OIG believes the Board and management have
          indicated their awareness of the nature of matters requiring particular
          attention and their willingness to address them appropriately.)




                                    23
IV.   OTHER COSTS

      Settlement Agreements with Departing Employees

      In the past ten years, LSC has paid departing employees $1,062,000 in
      settlement agreements to forestall potential employment litigation. (NOTE:
      Some of these matters include settlements between the OIG and OIG
      employees.)

      LSC, as a D.C. non-profit corporation, is subject to the laws of the District of
      Columbia, which provide an array of rights and remedies with respect to
      employment actions in addition to those available under federal law.

      LSC is an at-will employer, and may therefore terminate the employment of a
      staff member at any time for any reason not prohibited by law. Even so, LSC
      developed a severance pay policy, with a formula that is based on the
      employee’s length of service with LSC as well as the age of the employee. The
      severance policy makes severance pay available to an employee whose position
      is cancelled or who leaves as a result of a reduction-in-force. In addition, LSC
      policy allows LSC to offer severance pay or other financial incentives to
      employees facing termination when doing so is in LSC’s interest. In practice,
      LSC uses the severance formula as a basis for negotiating settlement
      agreements with departing employees so as to avoid potential litigation.
      Severance pay expenditures are authorized under federal appropriations;
      however, the severance pay generally is not authorized for negotiating settlement
      agreements. See Appendix II, § D.1.

      Using the formula as a guideline, we reviewed the settlement agreements
      entered into over the last ten years. Twenty-seven LSC employees entered into
      settlement agreements with LSC upon termination of their employment
      relationship with LSC. These settlements total approximately $1,062,000.
      Twelve employees received as settlements the dollar amounts computed using
      LSC’s severance formula. Twelve employees received amounts in excess of the
      severance formula. Three employees received amounts less than the severance
      formula.

      For 6 of the 12 employees who received settlements in excess of the severance
      formula, the settlements were significantly higher than the formula amount.
      These were four Vice-Presidents, an Inspector General and an LSC President. It
      is our understanding that, traditionally, LSC has paid executives other than the
      President six months of salary as severance pay.

      For the remaining six employees who received settlements above the formula,
      the settlements were between $9,000 and $41,000 above the severance formula.



                                         24
•   The two highest payments above the severance formula, $33,000 and
    $41,000, involved matters in which the employees were represented by
    counsel and LSC made the determination that it was prudent to settle the
    cases for amounts in excess of the severance formula rather than incur
    litigation costs and risk an adverse decision.

    The remaining four payments ranged from $9,000 to $25,000 above the
    severance formula and involved employees with relatively short service with
    LSC whose severance formula called for payments between $4,000 and
    $8,000. LSC officials involved in those settlement discussions indicated that
    the severance package was so small that LSC could not negotiate a
    settlement unless it offered more money than the severance formula called
    for.
A schedule of individual settlements is provided at Appendix III. At the request of
LSC, this Appendix is being provided to Congress under separate cover on a
confidential basis.

                              RECOMMENDATIONS

LSC should:

9. Review its employment policies and practices to determine whether it can
   reduce its potential liability.

10. Review its settlement policies and practices to determine (a) whether costs
   can be reduced, and (b) whether they are in the best interest of the
   corporation and appropriate expenditures of public funds.

    •   Management has indicated that it has been doing these things and will
        continue to do so. They also note that the potential cost of litigation must
        be taken into account in evaluating whether a settlement agreement is in
        the best interest of the Corporation.

Bonuses to the President/Locality Pay

We reviewed the allegation that the LSC President may be receiving excessive
bonuses. We found no evidence of excessive or undisclosed bonuses or of other
confidential or indirect payments by LSC to the LSC President. It is possible that
this allegation stemmed from a misunderstanding regarding the nature of certain
payments the President receives as “locality pay.” Most LSC employees receive
locality pay as part of their semi-monthly pay checks. Federal employees also
receive locality pay. See Appendix II, § D.2. However, because of the LSC pay
cap, the LSC President, Inspector General, and approximately 14 other officers,




                                     25
        directors, and managerial employees receive their locality in two equal payments
        on January 15th and July 15th.30

        We do note that the LSC President has been receiving locality pay at a rate that
        is 1 percent higher than the locality rate paid the rest of LSC employees.
        (Pursuant to instructions from the LSC Chairman, the Inspector General was also
        paid locality pay at a rate that was 1 per cent higher for his first four months of
        employment with LSC (September through December 2004. This ceased when
        the Director of Human Resources determined that the IG should be paid the
        same locality pay as the highest paid LSC Vice President.) President Barnett
        received a locality pay supplement of 10 percent, 11 percent, and 12.6 percent of
        her annual salary for calendar years, 2004, 2005, and 2006, respectively. The
        rest of LSC employees received a locality pay rate of 9 percent, 10 percent, and
        11.6 percent for calendar years 2004, 2005, and 2006, respectively.

        The LSC Chairman explained his rationale for increasing the LSC President’s
        compensation via her locality pay in an August 2, 2005, letter amending the LSC
        President’s employment contract, stating, “The salary of the President of LSC is
        limited by Congressional Act to Level 5 of the Executive Salary Schedule. The
        limit has caused salary compression within the LSC salary structure. As a
        method of alleviating the compression and increasing compensation without
        increasing the President’s salary, LSC has chosen to utilize locality pay in a
        similar manner, though at a reduced rate, as the federal government.”

        Locality pay rates by their nature are geographically based. Since the LSC
        President’s official duty station is the same as the rest of the employees in LSC,
        it appears questionable to establish a locality pay rate for her that is different
        from other LSC employees in the same location. Under the federal system, there
        is no variation by individual payee within a given area. Further, the Chairman’s
        stated purpose of using a putative locality pay differential to address salary
        compression issues and to avoid specific limitations on the President’s salary
        would seem to contravene the pay limitation statute.

                                            RECOMMENDATION

        11. LSC should determine whether it is proper and appropriate to have a locality
           rate for the LSC President that is higher than the locality rate established for
           all other LSC employees.



30
   The authority to pay locality pay over the LSC pay cap is unclear. The LSC Act states no officer or
employee shall be compensated in excess of the rate of level V of the Executive Schedule. The provision
of locality pay to the LSC President not withstanding the statutory pay cap is based on an October 2,
2003 internal opinion (# IN-2003-2009) from the Office of Legal Affairs which concluded locality pay is not
considered basic rate of pay as defined in 5 C.F.R. §531.202 (applicable to General Schedule
employees). This opinion reversed a December 28,1999 Office of Legal Affairs opinion that had
concluded that locality pay was not available to the LSC President.


                                                   26
            •   On September 22, the LSC Board voted to place the issue of locality pay
                on its agenda for the January 2007 Board meeting.

        Acting Special Counsel Costs

        The OIG is continuing to look into the issues relating to the Acting Special
        Counsels. In the interim, we are reporting the costs associated with each
        assignment.31 Jonathan Asher held the position as Acting Special Counsel from
        October 18, 2004, through July 17, 2005. Luis Jaramillo held the position as
        Acting Special Counsel from November 7, 2005 through May 8, 2006. The
        numbers reported by LSC in response to a Congressional request are slightly
        lower. The OIG included business-related travel reimbursements. Congress did
        not ask LSC to report such reimbursements.


                                               Asher          Jaramillo
                               Salary  $102,012.59 $51,333.30
                               Lodging   17,486.12 23,039.70
                               Travel    14,739.70   4,862.78

                                Total      $134,238.41 $79,235.78




31
   The table is based on a review of documentation submitted by LSC management in response to the
Congressional inquiry. We reviewed the documentation and discovered that some costs were not
included in the summary information provided to Congress. Also, management submitted a revised figure
for Mr. Jaramillo’s lodging costs that included an additional $639.95. We have included this amount in
Mr. Jaramillo’s housing costs in the table above. In addition, the supporting documentation provided to us
by LSC management included nine trips by Mr. Asher and five trips by Mr. Jaramillo that were not
included in management’s response. The cost of these additional trips are reflected in the schedule
above and resulted in additional travel costs of $2,618.35 for Mr. Asher and $4,442.88 for Mr. Jaramillo.



                                                   27
                                              APPENDIX I


A.      Background on City Pair Contract and GSA Regulations

LSC has been a mandatory user of the General Services Administration’s City Pair
Contract at least as far back as 1990. LSC has a memorandum of understanding with
Omega World Travel, a travel agency that handles bookings under the GSA City Pair
Contract.32 The City Pair Contract states that the Federal Travel Regulation, sections
41 CFR 301-10.107 through 301-10.143, govern the use of the City Pair Contract.
Since LSC is a mandatory user of the City Pair Contract, it has agreed to follow the
terms of the contract, including complying with the applicable provisions of the Federal
Travel Regulation.33

We note that since July, 2004, LSC has also implemented an Internet travel program
designed to save LSC money. An internal LSC study indicates a significant cost
savings with the program.34 The Internet travel program is not inconsistent with use of
the City Pair Contract as long as LSC meets the purchase restrictions associated with
reduced fares.

A 1995 OIG inspection report35 described the requirements associated with LSC use of
the City Pair Contract as follows:

        Through an arrangement with the General Services Administration (GSA), LSC
        was allowed to use Government contract travel rates. LSC’s Memorandum of
        Understanding (MOU) with Omega World Travel, Incorporated (Omega), required

32
    The GSA City Pair Contract is a competitive government contract with various airlines to obtain
favorable government airfares. The airfares are established by bidding on a fixed price between two
cities—a city pair. The airline with the most favorable bid for the city pair is awarded the government
contract for that city pair and the government agrees to use that airline for official travel only. Some of
the benefits to the government are last-seat availability, no change or cancellation fees, fully refundable
tickets, no blackout periods, no advance purchase requirements, and no minimum/maximum stay
requirements.
33
    We note that GAO, in a 1998 unpublished “nondecision letter” regarding LSC employees’ personal use
of frequent flyer miles, stated that the GSA regulations, by their terms, applied only to employees of
government agencies. The letter noted that the contract then in question was silent on the issue of
frequent flier miles and did not otherwise reference the travel regulations, and so concluded that “[w]ithout
more” they would not apply the regulations to LSC employees. In contrast, the GSA City Pair master
contract now explicitly refers to the regulations: “The use of GSA air passenger transportation services is
governed by 41 CFR 301-10.107 through 301.10.143 and 41 CFR 301-73.200 through 301-10.73.202.”
(Section B.2.) As mandatory users under the City Pair Contract LSC employees are subject to the travel
regulations. (“[M]andatory users for coach class service are – . . . (6) Employees of the Legal Services
Corporation (except grantees);” (Section B.4.A.).) Moreover, LSC’s MOU with Omega World Travel also
references the GSA master contract and incorporates GSA policy on personal travel found at 41 CFR
301-10.110.
34
   The OIG has not audited the Internet program to validate LSC’s calculation or to determine whether the
program is being implemented consistent with the City Pair Contract.
35
   OIG Inspection Report “Contract Service and Related Expense Payments” 95-056 July 1995


                                                    28
          that, if personal travel were combined with official travel, the traveler would be
          responsible for any increased costs associated with the arrangements. The
          GSA-Omega contract prohibited use of contract fares for any personal travel,
          including those instances where portions of personal travel are substituted for a
          leg of an officially authorized trip. [(Footnote omitted.).] Moreover, Chapter 6 of
          the LSC Administrative Manual prohibited personal travel at Government contract
          rates.36

B.        Expenses Associated with President’s Travel to and from Multiple
          Residences

The issue of authorizing the LSC President to use the government rate for travel to a
non-Washington, D.C. residence first arose in early 2005. The LSC President
requested the Comptroller review the GSA Travel Contract and the Federal Travel
Regulation concerning what was described as the Chairman’s desire that LSC interpret
the regulations broadly to allow her to purchase airline tickets at the Government rate
when traveling to or from one of her non-Washington, D.C. residences. In a January
2005 memorandum, the Comptroller informed the President that the Federal Travel
Regulation only allows the purchase of government rate tickets for travel that is official
LSC business and prohibit the use of the government rate for personal travel. LSC
indicates that the President has never used the government rate for routine commuting
to or from her non-Washington, D.C. residences.

A similar issue arose in late May 2005, shortly after the new Chief Administrative Officer
was appointed. This issue concerned whether the President could use government
fares for traveling to or from one of her non-Washington, D .C. residences as part of an
official LSC business trip. In a June 2005 email to the Chief Administrative Officer, the
Comptroller stated that according to the Federal Travel Regulation the government
fares should not be used for personal travel segment of trips. However, the Chief
Administrative Officer disagreed with the Comptroller and prepared a draft
memorandum for the Chairman’s signature which would permit LSC to pay for travel to
or from any of her homes.

For purposes of the Federal Travel Regulation, travel includes only local travel (for LSC,
the Washington, D.C. area) or travel to and from a temporary duty location, which is a
place away from an employee’s official station. The official station is the location of the
employee’s permanent work assignment.37 For the LSC President, the official station is
LSC’s headquarters in Washington, D.C. An application of this is found in the
discussion of whether a agency can pay expenses relating to transportation between an
employee’s home or official station and the airport in section 301-10.420(b). Upon
return from a temporary duty assignment, this section permits transportation expense
reimbursement only to the residence or place of business at the person’s official duty
station.


36
     Similar language can be found in Chapter 5 of the current Administrative Manual.
37
     See Glossary of Terms at 41 CFR Part 300.


                                                     29
LSC’s Administrative Manual is consistent with GSA policy. The manual states that a
Washington, D.C.-based LSC traveler who departs from or arrives in a city other than
the Washington, D.C. commuting area for personal convenience rather than for a
business purpose would be prohibited from using Government contract rates and would
be personally responsible for the additional transportation cost. In addition, Chapter 5,
Part V, paragraph C, requires that all travelers combining LSC business travel with
personal travel must charge the personal travel to a personal credit card at the time
travel reservations are made.

On October 28, 2005, based on advice from the Chief Administrative Officer (which was
contrary to the views expressed by the Comptroller), the Chairman authorized the LSC
President to fly to or from any of the President’s residences38 to conduct official
business and have all such travel be considered official business. This authorization
was based on a draft memorandum prepared by the Chief Administrative Officer in July
2005. This exception to LSC policy was limited to the LSC President, although other
LSC staff may have multiple residences and might also desire to travel to or from any of
those residences.39

When interviewed about this authorization, the LSC Chairman stated he felt the
President traveling to or from multiple residences was covered in discussions that were
held with the President and her representative during contract negotiations in 2003 and
thus it was reasonable under the circumstances to issue the October 28, 2005 letter
authorizing travel from multiple residences to document the discussions held during
contract negotiations. The Chairman also stated that he did not believe that he
discussed his decision to issue the authorization with the Board as a whole. However,
he also stated the issues were items on which he would have at least sought input from
several Board members.

The Chairman stated he did not remember receiving advice on this specific matter from
the Comptroller or the LSC General Counsel. The Chairman further stated he was not
even aware of the GSA City Pair Contract until very recently. When interviewed about
this, the Comptroller stated he was not asked by the Chairman for, nor did he provide
any input to the Chairman on this matter during contract negotiations, nor was he
afforded the opportunity to advise the Chairman before the Chairman issued the
October 28th letter.

There was no provision regarding LSC paying for travel to or from multiple residences in
the President’s original contract; the contract only permits reimbursement for legitimate
business expenses consistent with the LSC Administrative Manual. The President’s
employment contract states the following:



38
   The LSC President maintains multiple residences. The only residences outside of Washington, D.C.,
for which she has sought reimbursement have been those in New York and Florida.
39
   LSC has represented that in the past other LSC employees have been reimbursed for travel to and
from residences other than Washington, D.C.


                                                30
     [Y]ou will be entitled to the following: reimbursement for all reasonable,
     legitimate and suitably documented business expenses incurred by you in
     the course of your employment as President to which you may be entitled
     under the provisions of LSC’s Administrative Manual, as revised from time
     to time.

There is no provision in the LSC manual permitting the use of multiple residences as the
official duty station. Additionally, travel to or from multiple residences is not permitted
under GSA’s Federal Travel Regulation. The Chairman did not have the authority to
negotiate a contract that is contrary to LSC’s obligations under the regulations and its
contracts with Omega and GSA.

Moreover, in 1995, OIG Inspection Report 95-056 noted:

      Management takes the position that a trip paid for by LSC pursuant to an
      employment contract, even if the travel was personal in nature, is official travel.
      LSC cannot make a personal trip official simply by deeming it so. Otherwise, it
      could bind itself to pay for all nature of employee personal travel and all such
      travel at Government contract rate in violation of the MOU with GSA and the
      GSA contract with air carriers.

This remains the case today, yet the Chairman’s authorization of reimbursement for
personal travel essentially attempts to do just that: make what is a personal expense
into a business expense. (As noted, this was done apparently on the advice of the
Chief Administrative Officer.)

As a result, LSC has not adhered to the terms of the GSA City Pair Contract when the
Chairman authorized the use of government contract air fares for personal travel and
increased travel expenses for the corporation. Because traveling to and from
residences outside of Washington, D. C. was not required by the President’s official
duties, but rather for personal reasons, this authorization was also a deviation from the
provisions of the Administrative Manual which prohibited paying additional costs or
allowing the use of the GSA contract airfares for personal travel.

Note: President Barnett has announced that beginning April 1, 2006 she has requested
and will continue to request reimbursement for her return from business trips on a
Friday evening or Saturday, regardless of which residence she returns to, only in an
amount equivalent to the cost of a government rate return to Washington, D.C., but no
more than what she personally paid to return to her residence.

C.    Expenses Associated with President’s Outside Activities

President Barnett’s employment contract contains a provision that authorizes her to
continue to serve in various capacities with several organizations with which she was
involved prior to her selection as LSC President. Historically, the contracts of LSC
Presidents have contained similar provisions, not to authorize them to use LSC funds to



                                            31
engage in these outside activities, but rather to identify and limit the outside activities
permitted consistent with their obligation to devote their full professional time and
attention to the affairs and business of LSC.

In a January 13, 2005, memorandum to the LSC President, the Comptroller stated that
the President’s contract provides approval for her continuing in various public service
activities, but it does not indicate that LSC will pay the costs for the President to engage
in the activities. The memorandum suggested that the LSC President seek clarification
from the Chairman regarding the Board’s intent on these issues.

The March 15, 2005, response from the LSC President to the Comptroller stated:

          I spoke to the LSC Board Chairman, Frank B. Strickland, on Monday,
          February 28, 2005 regarding this issue. He has confirmed that I should continue
          as I am presently doing, with the expenses related to my involvement with the
          public service activities listed in my contract being paid for by LSC, and with the
          time spent on these activities not chargeable as vacation. These involvements
          provide an opportunity for me to reach out and interact with the leaders of the
          bench and the bar and the legal community in New York and across the country
          and enhance my ability to further the interests of the Corporation and is part of
          my role as serving as ambassador of the organization.

The Chairman authorized travel reimbursement of all travel expenses associated with
the President’s approved outside activities.40 In his interview, the Chairman explained
his rationale for approving such travel expenses; he said that it was a mark of distinction
for a legal aid attorney to be selected for a high ranking position within ABA, that it was
important for the President to continue in these activities, and that is was not
unreasonable for LSC to cover the cost of these type activities.

We question whether the justification is sufficient to permit, and whether it is proper, to
use appropriated funds for LSC to pay travel costs for President Barnett to participate in
all these activities. A fundamental precept of federal appropriations law is that funds
may be spent only for the purposes for which they were authorized and appropriated.
40
     The LSC President’s was authorized to participate in the following public service activities:
      • ABA Commission on Governance
      • Member of the ABA House of Delegates
      • Officer and member of the Executive Committee of the Association of the Bar of the City of New
          York
      • Co-Chair of New York State’s Commission to Promote Public Confidence in Judicial Elections
      • Board member of the Historical Society of the Courts of the State of New York
      • Member of the National Equal Justice Library Board

In March 2005, the LSC President indicated that she resigned in December 2004 as an officer and
member of the Executive Committee of the Association of the Bar of the City of New York, and that the
last meeting of the New York State Chief Judge’s Commission on Promoting Public Confidence in Judicial
Elections in March 14, 2005. She further indicated that her remaining public service activities were with
the ABA and the Historical Society of the Courts of New York.



                                                   32
31 U.S.C. §1301(a). While permitting the President to spend some ancillary time on
outside activities certainly may be appropriate, paying expenses for her work for at least
some of such activities (e.g., the Historical Society of the Court of the State of
New York) would seem to stretch the limits of the purpose of Congressional
appropriation for LSC.

We believe that a direct LSC business need should be used to determine whether or not
travel expenses for a specific trip should be reimbursed. While some of the trips may
have a direct LSC business reason, some may not. LSC’s Administrative Manual states
that, “Only travel which is appropriate to accomplish LSC business shall be authorized
and approved.” (Chapter 5, Part I, paragraph B.) This requirement reflects the
principles of federal appropriations law, and we believe it is integral to proper
stewardship of public funds.

D.      Violation of Fly America Act Regulations

Title 41 CFR Sections 301-10.131 through 301-10.143 of the Federal Travel Regulation
implement the “Fly America Act.” With very limited exceptions, these regulations
require the use of a U.S. flag air carrier when traveling to or from a foreign country.

On May 23, 2005, when President Barnett’s executive assistant made reservations on
Aer Lingus for her return trip from Shannon, Ireland, to New York, her executive
assistant was advised by Omega World Travel that the itinerary violated of the Fly
America Act. Omega World Travel records indicate that the executive assistant
authorized the purchase of a ticket on Aer Lingus, notwithstanding the Fly America Act
regulations.

The use of Aer Lingus for President Barnett’s flight from Ireland to the United States
does not appear to meet any of the exceptions set forth in the regulations. Section 301-
10.136 sets forth exceptions to the Fly America Act requirement for travel between the
U.S. and another country. It states that use of a U.S. flag air carrier is required where
nonstop or direct service is offered unless such use would extend travel time by more
than 24 hours.41 President Barnett’s original reservation on Continental had her leaving
Shannon at 11:35 a.m. on Friday June 10th. On May 23rd, she changed that flight to
Aer Lingus leaving Shannon at 2:15 pm on June 10th. Contrary to the requirements of
Section 301-10.142, President Barnett did not provide a certification for using a foreign
carrier nor was any reason provided for changing from a U.S. flag air carrier. On
June 7th, President Barnett’s booked a later Aer Lingus flight leaving at 4:35 pm so that
she could chair a Quality Session at the conference on Friday morning.

Section 301-10.138 allows for use of a foreign air carrier when the agency’s mission
could not be accomplished. However, there is no record that the initial reservation on
Aer Lingus was necessary to accomplish the LSC mission so that pursuant to section

41
   There are other exceptions where a U.S. flag air carrier does not offer nonstop or direct service to the
United States, but they do not appear to be applicable since there are direct flights from Shannon, Ireland
to the United States.


                                                    33
301-10.136 she would be required to fly on a U.S. flag air carrier unless there were no
direct flights within 24 hours of her departure time on June 10th.

The remedy for a violation of these regulations is set forth in section 301-10.143. The
traveler should not be reimbursed for any transportation cost in which the traveler
improperly uses a foreign air carrier service. See Appendix II § B.2.




                                          34
                                   APPENDIX II

                                   CONTENTS

              LSC and Comparable Federal Policies on Expenditures

A. Board Meetings

  1. Using Rented Space to Hold Meetings

  2. Contracting Process

  3. Per Diem Allowance

  4. Paying for Guests

B. Travel

  1. Airline Travel

  2. Fly America Act

  3. Car Service

  4. Premium Travel

  5. Travel Expense Waivers

C. Food and Entertainment

  1. Working Meals

  2. Business Entertainment

  3. Coffee, Water, and Miscellaneous Items

  4. Picnics and Holiday Parties

D. Other Costs

  1. Severance Pay

  2. Locality Pay




                                       35
                LSC and Comparable Federal Policies on Expenditures


                                       A. Board Meetings


1. Using Rented Space to Hold Meetings

LSC Policy

No specific policy was noted; however, LSC has stated that “[f]or two-day meeting
series, with breakouts into committees sometimes meeting concurrently, facilities at
LSC’s headquarters building are less suitable than those at the Melrose. LSC’s
headquarters building lacks ovens, stoves and other appliances typically used in
connection with the catering of meals. It does not have the same array (in both size and
number) of meeting rooms as a full-service hotel, and lacks the kind of privacy for
executive session meetings that is available at the Melrose.” LSC further stated “[t]he
Board has also preferred the convenience of meeting at the same location as where
their lodging is located, especially since some Board members attend the Board and
only their committee meetings and like to return to their meetings to do other work.”
Memorandum from Victor Fortuno, General Counsel to President Barnett, transmitted
by her to Senators Enzi and Grassley and Representative Cannon dated June 30, 2006,
p. 8.

Federal Policy

Title 41 CFR 101-17.101-4 authorizes short-term use of conference and meeting
facilities. The General Services Administration (GSA) will determine if suitable
Government-owned facilities are available. If no suitable facilities are available, GSA
will assist in arranging for the use of privately owned facilities.42

* * *

2. Contracting Practices

LSC Policy

Prior to February 2005, LSC’s policy stated that contracts with a cumulative cost
exceeding $5,000 will normally be awarded by solicitation of bids. However, if bids
were not obtained the reason for the exception was to be clearly documented for the file

42
   For general information about conference planning see the EPA Best Practices Guide for Conferences,
Ch. 2, §D at http://www.epa.gov/ogd/recipient/bestpractice.htm that addresses using the agency’s own
space (EPA also has rules for procuring “green” meeting space) and DOJ Conference Planning Guide at
http://www.ojp.usdoj.gov/ovc/publications/infores/res/confguid/.



                                                 36
and approved by the Comptroller. The manual also required that in the event a contract
is not awarded to the low bidder, a memorandum will be prepared for the file that clearly
explains and justifies the awarding of the contract to another bidder. Administrative
Manual, Chapter 3, Part II, paragraph 1.d (LSC policy in effect from January 1, 2002,
until February 3, 2005).

The current LSC policy states that contracts shall be awarded based on the best value
to LSC. Best Value is the most advantageous balance of price, quality, and
performance achieved through competitive procurement methods in accordance with
stated selection criteria. Competition is an integral component of this requirement and
requires contracts for services with a cumulative cost exceeding $10,500 must, except
as otherwise provided herein, be subject to competition through the receipt of proposals
submitted in response to a request for proposals (RFP). Administrative Manual,
Chapter 1 (LSC policy in effect from February 3, 2005 until current).

Prior to the award of any contract, the originator of the contract must obtain the review
of the Office of Legal Affairs, and the Comptroller and the approval of the Director of the
originating Office for contracts under $3,500, the Vice President or CÁO for the
originating Office of contracts greater than $3,500 and of the President for contracts
greater than $10,500 as set forth in paragraph A.1 of this Part. Without these approvals
the contract cannot be awarded and the Comptroller shall not issue a purchase order.
In addition, the Administrative Manual sets forth recordkeeping requirements. At a
minimum records relating to procurement and contracting activities shall include the
basis for contractor/vendor selection and justification for lack of competitive bidding or
proposals (as applicable). Documentation in the files shall be sufficient to constitute a
complete history of the transaction. (Chapter 15, LSC Administrative Manual).

Federal Policy

The Federal Acquisition Regulations (FAR) require full and open competition unless
there are statutory exceptions. FAR §6.302. Agencies must use simplified acquisition
procedures to the maximum extent practicable for all purchases of supplies or services
not exceeding the simplified acquisition threshold of $100,000. FAR §13.003. Each
acquisition that has an anticipated dollar value exceeding $2,500 ($2,500 and less are
treated as “micro-purchases) and not exceeding $100,000 generally is reserved
exclusively for small business concerns and must be set aside. FAR § 13.003(b)(1).
The contracting officer must promote competition to the maximum extent practicable to
obtain supplies and services from the source whose offer is the most advantageous to
the Government, considering the administrative cost of the purchase. FAR
§13.104. The contracting officer must not solicit quotations based on personal
preference or restrict solicitation to suppliers of well-known and widely distributed
makes or brands. FAR §13.104(a). The contracting official should consider solicitation
of at least three sources to promote competition to the maximum extent practicable.
FAR §13.104(a)(1).




                                            37
For purchases not exceeding the simplified acquisition threshold ($100,000), contracting
officers may solicit from one source if the contracting officer determines that the
circumstances of the contract action deem only one source reasonably available
(e.g., urgency, exclusive licensing agreements, or industrial mobilization). FAR §13.106-
1(b). The contracting officer must solicit quotations orally to the maximum extent
practicable, if the acquisition does not exceed $100,000 and oral solicitation is more
efficient than soliciting through available electronic commerce alternatives and notice is
not required; however, an oral solicitation may not be practicable for contract actions
exceeding $25,000 unless covered by an exception. FAR §13.106-1(c). If obtaining
electronic or oral quotations is uneconomical or impracticable, the contracting officer
should issue paper solicitations for contract actions likely to exceed $25,000. FAR
§13.106-1(d).
.
Before making an award, the contracting officer must determine that the proposed price
is fair and reasonable. FAR §13.106-3(a). Documentation is to be kept to a minimum.
Purchasing offices must retain data supporting purchases (paper or electronic) to the
minimum extent and duration necessary for management review purposes. FAR
§13.106-3(b). The contracting office should establish and maintain records of oral price
quotations in order to reflect clearly the propriety of placing the order at the price paid
with the supplier concerned. In most cases, this will consist merely of showing the
names of the suppliers contacted and the prices and other terms and conditions quoted
by each. FAR §13.106-3(b)(1). For acquisitions not exceeding $100,000, written
records of solicitations or offers should be limited to notes or abstracts to show prices,
delivery, references to printed price lists used, the supplier or suppliers contacted, and
other pertinent data. FAR §13.106-3(b)(2). Additional statements generally should be
included explaining the absence of competition if only one source is solicited and the
acquisition does not exceed the simplified acquisition threshold or supporting the award
decision if other than price-related factors were considered in selecting the supplier.
FAR §13.106-3(b)(2).

Federal contracting officers can reject bids, including lowest bids, for any number of
reasons. FAR §14.404-2. Low bids can also be rejected if received from concerns
determined to be not responsible pursuant to FAR §9.1. FAR §14.404-2(i). The
originals of all rejected bids, and any written findings with respect to such rejections,
must be preserved with the papers relating to the acquisition. FAR §14.404-2(k).

***

3. Per Diem Allowance

LSC Policy

Generally reimbursement for travel expenses is based on the IRS Per Diem guidelines
for standard meal allowances.




                                            38
During the period under review, the policy governing Board of Directors per diem for
meals was amended twice.

The January 1, 2002, Administrative Manual, effective until February 2005, at
Chapter 6, Part III, paragraph C1b, states that reimbursement for meals is based on the
IRS Per Diem guidelines for standard meal allowances. Further in paragraph C1, the
Administrative manual states:

        Meals provided to a traveler by a host or hotel should reduce the
        meal allowance by $5.00 for breakfast, $5.00 for lunch and $5.00
        for dinner. There is no meal allowance when all three meals are
        provided to the traveler.

The January 2002, Administrative Manual also contained a waiver provision for the
maximum meal rate. The Comptroller was authorized to waive the maximum meal rate
when circumstances indicated that additional allowances were necessary and
appropriate to conduct LSC business. The waiver had to be requested in advance.
Chapter 6, Part III, paragraph C.3.

On February 3, 2005 a new Administrative Manual was issued. The governing chapter
for business travel became chapter 5. The meal per diem rate, the reduction per meal
provided, and the wavier provisions remained essentially the same, with one major
change. The reimbursement for meals was based on the IRS Per Diem guidelines for
standard meal allowances “except at provided.” Chapter 5, Part III, paragraph C.

The provision in effect from the February 3, 2005 in the LSC Administrative Manual
revision until July 2006 read as follows:

      An exception is hereby made to allow Board members authorization to
      have meals on an actual basis for one day or day(s) of the trip and on a
      per diem basis for other day(s) of the same trip under the following
      circumstances.

      When attending a dinner with a number of Board members present, a
      waiver is granted for meals on an actual reimbursement up to 200 per cent
      of the remaining per diem. The Board member or LSC Corporate Officer
      paying the meal costs should include a list of all present and an itemized
      receipt of the meal on his/her Travel Expense Report. The individual
      paying will request reimbursement of the meal and each of the attending
      Board members should identify the purchaser if known or state that the
      meal was paid by someone else.

A July 24, 2006 revision was issued to Chapter 5 of the Administrative Manual,
changing the reduction for meals provided to be the same as the reductions used by
GSA and removing the provision for members of the Board of Directors to receive




                                          39
200 percent of remaining per diem when attending a dinner with a number of Board
members

Federal Policy

Federal per diem rules are authorized by 5 U.S.C. §5707 and found at 41 CFR
301-11. Selected sections are as follows:




                                      40
Subpart A—General Rules

§301-11.1 When am I eligible for an allowance (per diem or actual expense)?

When:
(a) You perform official travel away from your official station, or other areas defined by
your agency;
(b) You incur per diem expenses while performing official travel; and
(c) You are in a travel status for more than 12 hours.

§301-11.3 Must my agency pay an allowance (either a per diem allowance or actual
expense)?

Yes, unless:
(a) You perform travel to a training event under the Government Employees Training
Act (5 U.S.C. 4101-4118), and you agree not to be paid per diem expenses; or
(b) You perform pre-employment interview travel, and the interviewing agency does not
authorize payment of per diem expenses.

§301-11.4 May I be reimbursed actual expense and per diem on the same trip?

Yes, you may be reimbursed both actual expense and per diem during a single trip, but
only one method of reimbursement may be authorized for any given calendar day
except as provided in §301-11.305 or 301-11.306. Your agency must determine when
the transition between the reimbursement methods occurs.

§301-11.5 How will my per diem expenses be reimbursed?

Per diem expenses will be reimbursed by the:
(a) Lodgings-plus per diem method;
(b) Reduced per diem method;
(c) Conference lodging allowance method (see §§301-74.7 and 301-74.22 of this
chapter); or
(d) Actual expense method.

§301-11.6 Where do I find maximum per diem and actual expense rates?

Consult this table to find out where to access per diem rates for various types of
Government travel:




                                           41
  For travel in    Rates set by               For per diem and actual expense see


a) Continental     General Services           For per diem, see applicable FTR Per Diem Bulletins issued periodically by the Office of
   United States   Administration             Governmentwide Policy, Office of Transportation and Personal Property, Travel
   (CONUS)                                    Management Policy, and available on the Internet at http://www.gsa.gov/perdiem for
                                              actual expense, see 41 CFR 301-11.303 and 301-11.305.


b) Non-foreign     Department of Defense      Per Diem Bulletins issued by PDTATAC and published periodically in the Federal
   areas           (Per Diem, Travel and      Register or Internet at http://www.dtic.mil/perdiem. (Rates also appear in section 925, a
                   Transportation Allowance   per diem supplement to the Department of State Standardized Regulations
                   Committee (PDTATAC))       (Government Civilians—Foreign Areas).)


c) Foreign areas   Department of State        A per diem supplement to section 925, Department of State Standardized Regulations
                                              (Government Civilians—Foreign Areas).




  §301-11.7 What determines my maximum per diem reimbursement rate?

  Your TDY location determines your maximum per diem reimbursement rate. If you
  arrive at your lodging location after 12 midnight, you claim lodging cost for the preceding
  calendar day. If no lodging is required, the applicable M&IE reimbursement rate is the
  rate for the TDY location. (See §301-11.102.)

  §301-11.12 How does the type of lodging I select affect my reimbursement?

  Your agency will reimburse you for different types of lodging as follows:
  (a) Conventional lodgings. (Hotel/motel, boarding house, etc.) You will be reimbursed
  the single occupancy rate.
  (b) Government quarters. You will be reimbursed, as a lodging expense, the fee or
  service charge you pay for use of the quarters.
  (c) Lodging with friend(s) or relative(s) (with or without charge). You may be reimbursed
  for additional costs your host incurs in accommodating you only if you are able to
  substantiate the costs and your agency determines them to be reasonable. You will not
  be reimbursed the cost of comparable conventional lodging in the area or a flat ``token”
  amount.
  (d) Nonconventional lodging. You may be reimbursed the cost of other types of lodging
  when there are no conventional lodging facilities in the area (e.g., in remote areas) or
  when conventional facilities are in short supply because of an influx of attendees at a
  special event (e.g., World’s Fair or international sporting event). Such lodging includes
  college dormitories or similar facilities or rooms not offered commercially but made
  available to the public by area residents in their homes.

  §301-11.18 What M&IE rate will I receive if a meal(s) is furnished by the Government or
  is included in the registration fee?

  Your M&IE rate must be adjusted for a meal(s) furnished to you by the Government
  (including meals furnished under the authority of Chapter 304 of this Title) by deducting
  the appropriate amount shown in the chart in this section for travel within CONUS and


                                                                  42
the chart in Appendix B of this Chapter for meal deductions for OCONUS and foreign
travel. The total amount of deductions made will not cause you to receive less than the
amount allowed for incidental expenses.
   .

Total M&IE                   $39       $44        $49      $54       $59        $64


Breakfast                     7         8          9       10         11        12

Lunch                        11        12         13       15         16        18

Dinner                       18        21         24       26         29        31

Incidentals                   3         3          3        3          3         3




§301-11.23 Are there any other circumstances when my agency may reimburse me to
return home or to my official station for non-workdays during a TDY assignment?

Your agency may authorize per diem or actual expense and round-trip transportation
expenses for periodic return travel on non-workdays to your home or official station
under the following circumstances:
(a) The agency requires you to return to your official station to perform official business;
or
(b) The agency will realize a substantial cost savings by returning you home; or
(c) Periodic return travel home is justified incident to an extended TDY assignment.

§301-11.24 What reimbursement will I receive if I voluntarily return home or to my
official station on non-workdays during my TDY assignment?

If you voluntarily return home or to your official station on non-workdays during a TDY
assignment, the maximum reimbursement for round trip transportation and per diem or
actual expense is limited to what would have been allowed had you remained at the
TDY location.

§301-11.25 Must I provide receipts to substantiate my claimed travel expenses?

Yes, you must provide a lodging receipt and either a receipt for any authorized
expenses incurred costing over $75, or a reason acceptable to your agency explaining
why you are unable to provide the necessary receipt.

§301-11.26 How do I get a per diem rate increased?

If you travel to a location where the per diem rate is insufficient to meet necessary
expenses, you may submit a request, containing pertinent lodging and meal cost data,
through your agency asking that the location be surveyed. Depending on the location in
question your agency may submit the survey request to:




                                             43
      For CONUS locations            For non-foreign area locations                      For foreign area locations


      General Services               Department of Defense, Per Diem, Travel and         Department of State,
      Administration,                Transportation, Allowance Committee                 Director of Allowances,
      Office of Governmentwide       (PDTATAC),                                          State Annex 29, Room 262,
      Policy,                        Hoffman Building #1, Room 836,                      Washington, DC 20522-
      Attn: Travel Management        2461 Eisenhower Ave.,                               2902.
      Division (MTT),                Alexandria, VA 22331-1300
      Washington, DC 20405.




§301-11.30 What is my option if the Government lodging rate plus applicable taxes
exceeds my lodging reimbursement?

You may request reimbursement on an actual expense basis, not to exceed 300
percent of the maximum per diem allowance. Approval of actual expenses is usually in
advance of travel and at the discretion of your agency. (See §301-11.302.)

Subpart B—Lodgings Plus Per Diem

§301-11.100 What will I be paid for lodging under Lodgings-plus per diem?

When travel is more than 12 hours and overnight lodging is required you are reimbursed
your actual lodging cost not to exceed the maximum lodging rate for the TDY location or
stopover point.

§301-11.101 What allowance will I be paid for M&IE?

(a) Except as provided in paragraph (b) of this section, your allowance is as shown in
the following table:

      When travel is                                            Your allowance is


      More than 12 but less than 24 hours                         75 percent of the applicable M&IE rate.


      24 hours or more,      The day of departure                 75 percent of the applicable M&IE rate.
      on

                             Full days of travel                  100 percent of the applicable M&IE rate.


                             The last day of travel               75 percent of the applicable M&IE rate.




                                                             44
§301-11.102 What is the applicable M&IE rate?

      For days of travel which                                    Your applicable M&IE rate is


      Require lodging                                             The M&IE rate applicable for the TDY location.


      Do not     Travel is more than 12 hours but less than 24    The M&IE rate applicable to the TDY site or the highest
      require    hours.                                           M&IE rate applicable when multiple locations are involved).
      lodging,
      and
                 Travel is 24 hours or more, and you are          The M&IE rate applicable to the new TDY site or stopover
                 traveling to a new TDY site or stopover point    point.
                 at midnight.


                 Travel is 24 hours or more, and you are          The M&IE rate applicable to the previous day of travel.
                 returning to your official station.




Subpart D—Actual Expense

§301-11.300 When is actual expense reimbursement warranted?

When:
(a) Lodging and/or meals are procured at a prearranged place such as a hotel where a
meeting, conference or training session is held;
(b) Costs have escalated because of special events (e.g., missile launching periods,
sporting events, World’s Fair, conventions, natural disasters); lodging and meal
expenses within prescribed allowances cannot be obtained nearby; and costs to
commute to/from the nearby location consume most or all of the savings achieved from
occupying less expensive lodging;
(c) Because of mission requirements; or
(d) Any other reason approved within your agency.

§301-11.301 Who in my agency can authorize/approve my request for actual expense?

Any official designated by the head of your agency.

§301-11.302 When should I request authorization for reimbursement under actual
expense?

Request for authorization for reimbursement under actual expense should be made in
advance of travel. However, subject to your agency’s policy, after the fact approvals
may be granted when supported by an explanation acceptable to your agency.

§301-11.303 What is the maximum amount that I may be reimbursed under actual
expense?




                                                                 45
The maximum amount that you may be reimbursed under actual expense is limited to
300 percent (rounded to the next higher dollar) of the applicable maximum per diem
rate. However, subject to your agency’s policy, a lesser amount may be authorized.

§301-11.304 What if my expenses are less than the authorized amount?

When authorized actual expense and your expenses are less than the locality per diem
rate or the authorized amount, reimbursement is limited to the expenses incurred.

§301-11.305 What if my actual expenses exceed the 300 percent ceiling?

Your reimbursement is limited to the 300 percent ceiling. There is no authority to exceed
this ceiling.

§301-11.306 What expenses am I required to itemize under actual expense?

You must itemize all expenses, including meals, (each meal must be itemized
separately) for which you will be reimbursed under actual expense. However, expenses
that do not accrue daily (e.g., laundry, dry cleaning, etc.) may be averaged over the
number of days your agency authorizes/approves actual expenses. Receipts are
required for lodging, regardless of amount and any individual meal when the cost
exceeds $75. Your agency may require receipts for other allowable per diem expenses,
but it must inform you of this requirement in advance of travel. When your agency limits
M&IE reimbursement to either the prescribed maximum M&IE rate for the locality
concerned or a reduced M&IE rate, it may or may not require M&IE itemization at its
discretion.

Note: OMB Circular A-122 allows for the costs of meetings and conferences held to
conduct the general administration of non-profit federal grantees. OMB Circular A-122
provides cost principles for non-profit organizations. It defines “reasonable costs” as
follows:

      A cost is reasonable if, in its nature or amount, it does not exceed that which
      would be incurred by a prudent person under the circumstances prevailing at the
      time the decision was made to incur the costs. The question of the
      reasonableness of specific costs must be scrutinized with particular care in
      connection with organizations or separate divisions thereof which receive the
      preponderance of their support from awards made by federal agencies. In
      determining the reasonableness of a given cost, consideration shall be given to:

             a. Whether the cost is of a type generally recognized as
             ordinary and necessary for the operation of the organization
             or the performance of the award.

             b. The restraints or requirements imposed by such factors as
             generally accepted sound business practices, arms length



                                           46
               bargaining, Federal and State laws and regulations, and
               terms and conditions of the award.

               c. Whether the individuals concerned acted with prudence in
               the circumstances, considering their responsibilities to the
               organization, its members, employees, and clients, the
               public at large, and the Federal Government.

               d. Significant deviations from the established practices of the
               organization which may unjustifiably increase the award
               costs.

Although OMB Circular A-122 does not apply to LSC, its guidance in determining the
reasonableness of expenses may be helpful in making such a determination.

***

4. Paying for Guests

LSC Policy

LSC’s Administrative Manual, Chapter 14 on Business Entertainment Expenses43
addresses meals provided for others as follows:

       This section is limited to the occasions when an LSC Officer, Director, or Vice
       President in his or her official capacity entertains another person or persons on
       LSC business. The purpose of the entertainment must be to conduct LSC
       business and must be approved by the President or designee whenever possible
       prior to the occasion. The cost of the business entertainment will be reimbursed
       to the authorized employee up to an amount per person entertained of the per
       diem allowed for the city in which the business entertainment occurs.

While this section of the policy states that the purpose of the entertainment must be to
conduct LSC business, the Administrative Manual does not require that the business
necessity or the nature of the business be documented.

Federal Policy

Title 31 U.S.C. §1345 prohibits the expenditure of appropriations for travel,
transportation, and subsistence for meetings, except as specifically provided by law. As

43
  Prior to the February 2005 revisions to LSC’s Administrative Manual, LSC did not have a business
entertainment policy. However, the previous version of the Administrative policy did have a policy on
petty cash funds that addressed “representative expenses.” The policy required that the nature of the
expense and the names and business relationships of the guests be stated but it did not require that the
LSC business reason of the expense be documented.



                                                  47
a general proposition, agency appropriations are not available to pay for the travel,
transportation and subsistence expenses of private parties. Matter of National Science
Foundation Annual Awards Dinner, B-235163.11 (February 13, 1996).

Congress has long recognized that many agencies have a legitimate need for items that
otherwise would be prohibited as entertainment, and has responded by making limited
amounts available for official entertainment to those agencies that can justify the need.
GAO Redbook, p. 4-135. With two major exceptions (at the Departments of State and
Defense), most agencies follow a similar pattern and receive their entertainment funds,
if they receive them at all, simply as part of their annual appropriations. The
appropriation may specify that it will be available for “entertainment.” See, e.g.,
B-20085, Sept. 10, 1941. Far more commonly, however, the term used in the
appropriation is “official reception and representation (R&R).” This has come to be the
technical “appropriations language” for entertainment. GAO Redbook, p. 4-136.

An agency has wide discretion in the use of its R&R appropriation. 61 Comp. Gen. 260,
266 (1982); B-212634, Oct. 12, 1983. GAO Redbook, p. 4-138. Accordingly, R&R
funds have been found available for a holiday party for government officials and their
spouses or guests.        61 Comp. Gen. 260 (1982), aff’d upon reconsideration,
B-206173(2), Aug. 3, 1982. Notwithstanding the discretion it confers, an R&R
appropriation is not intended to permit government officials to feed themselves and one
another incident to the normal day-to-day performance of their jobs. GAO Redbook,
p. 4-140.44

Note: The Panel on the Nonprofit Sector recently recommended that with the exception
of de minimis expenses of those attending an activity of the organization (such as a
meal function), charitable organizations should not pay for nor reimburse travel
expenditures for a spouse, dependents, or others who are accompanying an individual
conducting business for the organization unless the additional person is also conducting
business for the organization.45 Like OMB Circular A-122, discussed above, this
publication could be a useful guide to persons determining the reasonableness of
various LSC expenses.




44
   The Comptroller General, the head of the Government Accountability Office (GAO), issues decisions in
various areas of Federal appropriations law. These decisions are prepared by GAO's Office of General
Counsel, and are identified by a numbering system beginning with B-(number); each decision carries its
own B-number and date. Many of these decisions are referenced in GAO’s Principles of Federal
Appropriations Law, commonly called the “GAO Red Book” which can be found at
http://www.gao.gov/special.pubs/3rdeditionvol1.pdf.
45
   http://www.nonprofitpanel.org/final/Panel_Final_Report.pdf


                                                  48
                                        B. Travel


1. Airline Travel

LSC Policy

Except as provided herein, travelers are required to use contract air carriers for all LSC
air travel between cities designated "city-pairs" by the GSA. The Comptroller is
authorized under the conditions set forth below to grant exceptions to the rule requiring
the use of contract air carriers. A traveler requesting an exception to this rule must
indicate accordingly on the Travel Request Form and provide an explanation of why a
non-contract carrier must be used. (In emergencies, where the requisite authorization
could not be obtained on the Travel Request Form and an amended Travel Request
Form Revised as of February 3, 2005 was not processed pursuant to Part II of this
chapter, the traveler must include a justification on the Expense Report and forward a
photocopy of the Expense Report to the Comptroller.) Generally, the conditions for
exceptions are:

       • Space is not available in time to accomplish LSC business;
       • Flight schedule would require additional overnight lodging;
       • Flight schedule would require travel during other than LSC's normal
       working hours;
       • On the basis of a comparison of total cost for each individual trip, the use
       of a standard coach fare is less than the contract fare at the time the
       reservation is made, considering such cost factors as actual transportation,
       subsistence, or lost work time. In comparing transportation costs, available
       "Super-Saver" or other promotional or restricted fares, shall not be used. Any
       such fare comparison must be based on a standard coach fare available without
       restriction to the general public, and not one which is restricted in any way or
       otherwise available only to travelers participating in the Federal Travel Program;
       • Flight schedules do not meet LSC business requirements; or
       • Flight origin and termination points result in excessive local travel time
       and costs.

LSC is conducting a Pilot Travel Coordination Program. Refer to Appendix VI for Memo
from President Helaine M. Barnett dated July16, 2004 and Appendix VII for Guidelines
and Procedures dated July 30, 2004 for the procedure to make travel arrangements
during the Pilot period. LSC Administrative Manual, Part IV.

Federal Policy

Federal and military travelers on official business are required to use the contract carrier
unless a specific exception applies. This required use is the incentive necessary to
obtain airline participation in the Airfares (City Pair Program) and allows the airlines the
business volume necessary to offer discounted rates. Choosing not to use the contract


                                            49
carrier because of personal preference, frequent flyer clubs, etc., is a violation of the
contract.

Commercial airfares can be highly volatile, so an exception to the mandatory use
requirement allows government travelers to take advantage of any low commercial fares
offered by non-contract carriers, if the fares are also offered to the general public. Non-
contract fares that are offered only to government travelers (sometimes called "DG"
fares) are not included in this exception. Also, if the contract carrier for the particular
market offers the lower fare, you still must use them, but at the lower fare. Travelers that
use this exception would have to abide by the many restrictions that typically go along
with lower commercial fares. Restrictions on discounted commercial fares usually
include: non-refundability, change or cancellation fees, minimum or maximum stay
requirements or extended calendar blackout periods.

Additional exceptions to the mandatory use requirement are contained in the Federal
Travel Regulation at § 301-10.107):

     •   Space or a scheduled contract flight is not available in time to accomplish the
         purpose of your travel, or use of contract service would require you to incur
         unnecessary overnight lodging costs which would increase the total cost of the
         trip; or
     •   The contractor's flight schedule is inconsistent with explicit policies of your
         Federal department or agency with regard to scheduling travel during normal
         working hours; or
     •   Rail service is available, and such service is cost effective and is consistent with
         mission requirements; or
     •   Smoking is permitted on the contract flight and the nonsmoking section of the
         aircraft for the contract flight is not acceptable to you.46

***

2. Fly America Act

LSC Policy

The Administrative Manual does not address the Fly America Act.

Federal Policy

Fly America Act regulations are found at 41 CFR §301-10 and provide as follows:


46
  www.gsa.gov/Portal/gsa/ep/contentView.do?faq=yes&pageTypeId=8211&contentId=
9651&contentType=GSA_OVERVIEW




                                              50
Sec. 301-10.132 Who is required to use a U.S. flag air carrier?
Anyone whose air travel is financed by U.S. Government funds, except as provided in
Sec. 301-10.135, Sec. 301-10.136, and Sec. 301-10.137.
Sec. 301-10.133 What is a U.S. flag air carrier?

An air carrier which holds a certificate under 49 U.S.C. 41102 but does not include a
foreign air carrier operating under a permit.

Sec. 301-10.134 What is U.S. flag air carrier service?

U.S. flag air carrier service is service provided on an air carrier which holds a certificate
under 49 U.S.C. 41102 and which service is authorized either by the carrier's certificate
or by exemption or regulation. U.S. flag air carrier service also includes service provided
under a code share agreement with a foreign air carrier in accordance with Title 14,
Code of Federal Regulations when the ticket, or documentation for an electronic ticket,
identifies the U.S. flag air carrier's designator code and flight number.

Sec. 301-10.135 When must I travel using U.S. flag air carrier service?

You are required by 49 U.S.C. 40118, commonly referred to as the ``Fly America Act,''
to use U.S. flag air carrier service for all air travel funded by the U.S. Government,
except as provided in Sec. 301-10.136 and Sec. 301-10.137 or when one of the
following exceptions applies:
(a) Use of a foreign air carrier is determined to be a matter of necessity in accordance
with Sec. 301-10.138; or
(b) The transportation is provided under a bilateral or multilateral air transportation
agreement to which the United States Government and the government of a foreign
country are parties, and which the Department of Transportation has determined meets
the requirements of the Fly America Act; or
(c) You are an officer or employee of the Department of State, United States Information
Agency, United States International Development Cooperation Agency, or the Arms
Control Disarmament Agency, and your travel is paid with funds appropriated to one of
these agencies, and your travel is between two places outside the United States; or
(d) No U.S. flag air carrier provides service on a particular leg of the route, in which
case foreign air carrier service may be used, but only to or from the nearest interchange
point on a usually traveled route to connect with U.S. flag air carrier service; or
(e) A U.S. flag air carrier involuntarily reroutes your travel on a foreign air carrier; or
(f) Service on a foreign air carrier would be three hours or less, and use of the U.S. flag
air carrier would at least double your en route travel time; or
(g) When the costs of transportation are reimbursed in full by a third party, such as a
foreign government, international agency, or other organization.

Sec. 301-10.136 What exceptions to the Fly America Act requirements apply when I
travel between the United States and another country?

The exceptions are:



                                             51
(a) If a U.S. flag air carrier offers nonstop or direct service (no aircraft change) from your
origin to your destination, you must use the U.S. flag air carrier service unless such use
would extend your travel time, including delay at origin, by 24 hours or more.
(b) If a U.S. flag air carrier does not offer nonstop or direct service (no aircraft change)
between your origin and your destination, you must use a U.S. flag air carrier on every
portion of the route where it provides service unless, when compared to using a foreign
air carrier, such use would:
(1) Increase the number of aircraft changes you must make outside of the U.S. by 2 or
more; or
(2) Extend your travel time by at least 6 hours or more; or
(3) Require a connecting time of 4 hours or more at an overseas interchange point.

Sec. 301-10.137 What exceptions to the Fly America Act requirements apply when I
travel solely outside the United States, and a U.S. flag air carrier provides service
between my origin and my destination?

You must always use a U.S. flag carrier for such travel, unless, when compared to using
a foreign air carrier, such use would:
(a) Increase the number of aircraft changes you must make en route by 2 or more; or
(b) Extend your travel time by 6 hours or more; or
(c) Require a connecting time of 4 hours or more at an overseas interchange point.

Sec. 301-10.138 In what circumstances is foreign air carrier service deemed a matter
of necessity?

(a) Foreign air carrier service is deemed a necessity when service by a U.S. flag air
carrier is available, but
(1) Cannot provide the air transportation needed; or
(2) Will not accomplish the agency's mission.
(b) Necessity includes, but is not limited to, the following circumstances:
(1) When the agency determines that use of a foreign air carrier is necessary for
medical reasons, including use of foreign air carrier service to reduce the number of
connections and possible delays in the transportation of persons in need of medical
treatment; or
(2) When use of a foreign air carrier is required to avoid an unreasonable risk to your
safety and is approved by your agency (e.g., terrorist threats). Written approval of the
use of foreign air carrier service based on an unreasonable risk to your safety must be
approved by your agency on a case by case basis. An agency determination and
approval of use of a foreign air carrier based on a threat against a U.S. flag air carrier
must be supported by a travel advisory notice
issued by the Federal Aviation Administration and the Department of State. An agency
determination and approval of use of a foreign air carrier based on a threat against
Government employees or other travelers must be supported by evidence of the
threat(s) that form the basis of the determination and approval; or




                                             52
(3) When you can not purchase a ticket in your authorized class of service on a U.S.
flag air carrier, and a seat is available in your authorized class of service on a foreign air
carrier.

Sec. 301-10.139 May I travel by a foreign air carrier if the cost of my ticket is less than
traveling by a U.S. flag air carrier?

No. Foreign air carrier service may not be used solely based on the cost of your ticket.

Sec. 301-10.140 May I use a foreign air carrier if the service is preferred by or more
convenient for my agency or me?

No. You must use U.S. flag air carrier service, unless you meet one of the exceptions in
Sec. 301-10.135, Sec. 301-10.136, or Sec. 301-10.137 or unless foreign air carrier
service is deemed a matter of necessity under Sec. 301-10.138.

Sec. 301-10.141 Must I provide any special certification or documents if I use a foreign
air carrier?

Yes, you must provide a certification, as required in Sec. 301-10.142 and any other
documents required by your agency. Your agency cannot pay your foreign air carrier
fare if you do not provide the required certification.

Sec. 301-10.142 What must the certification include?

The certification must include:
(a) Your name;
(b) The dates that you traveled;
(c) The origin and the destination of your travel;
(d) A detailed itinerary of your travel, name of the air carrier and flight number for each
leg of the trip; and
(e) A statement explaining why you met one of the exceptions in Sec. 301-10.135, Sec.
301-10.136, or Sec. 301-10.137 or a copy of your agency's written approval that foreign
air carrier service was deemed a matter of necessity in accordance with Sec. 301-
10.138.

Sec. 301-10.143 What is my liability if I improperly use a foreign air carrier?

You will not be reimbursed for any transportation cost for which you improperly use
foreign air carrier service. If you are authorized by your agency to use U.S. flag air
carrier service for your entire trip, and you improperly use a foreign air carrier for any
part of or the entire trip (i.e., when not permitted under this regulation), your
transportation cost on the foreign air carrier will not be payable by your agency. If your
agency authorizes you to use U.S. flag air carrier service for part of your trip and foreign
air carrier service for another part of your trip, and you improperly use a foreign air
carrier (i.e., when neither authorized to do so nor otherwise permitted under this



                                             53
regulation), your agency will pay the transportation cost on the foreign air carrier for only
the portion(s) of the trip for which you were authorized to use foreign air carrier service.
The agency must establish internal procedures for denying reimbursement to travelers
when use of a foreign air carrier was neither authorized nor otherwise permitted under
this regulation.

***

3. Car Service

LSC Policy

According to LSC while it “has no policy specifically regarding the use of car services,
its general policy is that ‘travel is to be completed by the means of transportation most
beneficial to LSC and the traveler considering cost, time and other pertinent factors.’
(See LSC Administrative manual, Chapter 5, Part IV, A ….) Pertinent factors include
what is necessary to accomplish the objective.” Memorandum from Victor Fortuno,
General Counsel to President Barnett, transmitted by her to Senators Enzi and Grassley
and Representative Cannon dated June 30, 2006, p. 5.

Part IV, A, of LSC’s Administrative Manual provides that travel is to be completed by the
means of transportation most beneficial to LSC and the traveler considering cost, time,
and other pertinent factors.       In selecting a particular mode of transportation,
consideration is given to the transportation cost using the contract carriers under the
GSA contract, subsistence expenses, overtime and lost work time. All costs must be
reasonable and necessary to the conduct of LSC business. The selection of a certain
mode of transportation or a specific airline or flight is based on the benefits to LSC and
not on the traveler’s personal preference or minor inconvenience.

According to Part IV, C of LSC’s Administrative Manual, local travel is defined as travel
within the city/area where an individual is working either temporarily or permanently and
where overnight lodging is not required. The cost of buses, streetcars, subways and
taxicabs incurred for local LSC business travel will be reimbursed. Original receipts are
required for any taxicab fares over $15.           If a personal automobile is used,
reimbursement for mileage will be available at the established rate, as set forth in
Appendix II. According to Part IV, J of LSC’s Administrative Manual, use of
conveyances other than those mentioned above [buses, taxi, personal automobile,
subways, air carriers], e.g. private airplane, must be approved in advance by the
Comptroller.

Federal Policy

Federal agencies may authorize common carrier transportation (e.g., aircraft, train, bus,
ship, or local transit system), Government vehicle, personally owned vehicle, or special
conveyance (e.g., taxi or commercial automobile). Federal Travel Regulation §301-
10.3. The agency must select the method most advantageous to the Government,



                                             54
when cost and other factors are considered. Under 5 U.S.C. §5733, travel must be by
the most expeditious means of transportation practicable and commensurate with the
nature and purpose of the traveler’s duties. In addition, the agency must consider
energy conservation, total cost to the Government (including costs of per diem,
overtime, lost work time, and actual transportation costs), total distance traveled,
number of points visited, and number of travelers. FTR §301-10.4 Travel by common
carrier is presumed to be the most advantageous method of transportation and must be
used when reasonably available the most advantageous method of transportation. FTR
§301-10.5

Federal agencies may authorize the use of taxicabs or any other special conveyance
when determined to be advantageous to the Government. FTR §301-10.400 et seq. A
traveler may use a taxi for local travel. When an agency authorizes/approves the use of
a taxi for the following, local travel is reimbursable between places of business, between
a place of lodging and a place of business at a temporary duty station, and to obtain
meals at the nearest available place where the nature and location of the work at a
temporary duty station are such that meals cannot be obtained there. Federal agencies
will restrict or place a monetary limit on the amount of reimbursement for the use of
taxicabs when suitable Government or common carrier transportation service, including
shuttle service, is available for all or part of the distance involved; or courtesy
transportation service is provided by hotels/motels between the place of lodging at the
temporary duty station and the common carrier terminal. Federal agencies may
authorize reimbursement of the usual taxicab fare from the traveler’s home to the office
on the day they depart the office on an official trip requiring at least one night’s lodging
and from the office to home upon return. In addition, the usual taxicab fare may be
authorized between the traveler’s office and home when they perform official business
at their official station and they are dependent on public transportation for officially
ordered work outside regular working hours and their travel between their office and
home is during hours of infrequently scheduled public transportation or darkness.

Although the Federal Travel Regulation do no specifically address cars with drivers, the
GSA contracting schedule provides for Ground Passenger Transportation, utilizing
Shuttle, Limousine, and Driver Services, under the Transportation, Delivery and
Relocation Solutions (TDRS), Schedule 48 (including time-definite pickup and delivery
of government personnel, limousine services, and Very Important Person (VIP)
transport)47 and Ground Passenger Transportation Services: Shuttle, Limousine and
Driver.48

***




47
   http://www.gsa.gov/Portal/gsa/ep/contentView.do?contentType=GSA_
OVERVIEW&contentId=17666&noc=T
48
   http://www.gsa.gov/Portal/gsa/ep/contentView.do?contentType=GSA_BASIC&contentId=17510&noc=T



                                             55
4. Premium Travel

LSC Policy

LSC policy on first class travel, which is found in the LSC Administrative Manual at
Chapter 5, Part IV.E, provides that only the LSC President and Inspector General have
the authority to approve first class carrier accommodations. Written approval to use first-
class accommodations must accompany the Expense Report. The policy does not
differentiate between first-class and business-class travel.

In addition, LSC has stated “It is LSC policy to only pay for coach airfare. LSC Board
members, officers and staff do not travel first or business class at LSC expense.” Letter
from LSC President Barnett to Chairman Wolf, March 13, 2006.

Federal Policy

The Federal Travel Regulation list several types of airline accommodations: coach,
business, first and single. Coach class is the basic class of accommodations offered to
travelers regardless of fare paid. The terms “tourist” or “economy-class” are sometimes
used for this class of accommodation. When authorizing this class of accommodation,
use of the contract city-pair fare is mandatory. Business class is a premium-class of
accommodation offered by the airlines that is higher than coach and lower than first
class, in both cost and amenities. This class of accommodation is generally referred to
as “business, business elite, business first, world business, connoisseur, or envoy”
depending on the airline. Not all city-pair fares are available in business-class, and even
when use of business-class is authorized, the use of business-class city-pair fares is
optional. This class of service may only be authorized in accordance with the provisions
of FTR §301-10.124, set out below. Generally, first class is the highest class of
accommodation offered by the airlines in terms of both cost and amenities and termed
“first-class” by the airlines and any reservation system. This class of accommodation
may only be authorized in accordance with the provisions of FTR §301-10.123, set out
below. There are no contract city-pair fares for this class of accommodation. The term
“single class” applies when an airline offers only one class of accommodations to all
travelers. §301-10.122

For official business travel, both domestic and international, Federal travelers must use
coach-class accommodations, except as provided under FTR §§301-10.123 and 301-
10.124.

§301-10.123 When may I use first-class airline accommodations?

You may use first-class airline accommodations only when your agency specifically
authorizes/approves your use of such accommodations, for the reasons given under
paragraphs (a) through (d) of this section.




                                            56
(a) No coach or business-class accommodations are reasonably available. “Reasonably
available” means available on an airline that is scheduled to leave within 24 hours of
your proposed departure time, or scheduled to arrive within 24 hours of your proposed
arrival time.

(b) When use of first-class is necessary to accommodate a disability or other special
need. A disability must be substantiated in writing by a competent medical authority. A
special need must be substantiated in writing according to your agency’s procedures. If
you are authorized under §301-13.3(a) of this chapter to have an attendant accompany
you, your agency also may authorize the attendant to use first-class accommodations if
you require the attendant’s services en route.

(c) When exceptional security circumstances require first-class travel. Exceptional
security circumstances are determined by your agency and include, but are not limited
to:
(1) Use of other than first-class accommodations would endanger your life or
Government property;
(2) You are an agent on protective detail and you are accompanying an individual
authorized to use first-class accommodations; or
(3) You are a courier or control officer accompanying controlled pouches or packages.

(d) When required because of agency mission.

Note to §301-10.123: You may upgrade to first-class at your personal expense,
including through redemption of frequent flyer benefits

§301-10.124 When may I use business-class airline accommodations?

Only when your agency specifically authorizes/approves your use of such
accommodations, for the reasons given under paragraphs (a) through (i) of this section.

(a) Regularly scheduled flights between origin/destination points (including connecting
points) provide only first-class and business-class accommodations and you certify such
on your voucher; or
(b) No space is available in coach-class accommodations in time to accomplish the
mission, which is urgent and cannot be postponed; or
(c) When use of business-class accommodations is necessary to accommodate your
disability or other special need. Disability must be substantiated in writing by a
competent medical authority. Special need must be substantiated in writing according to
your agency’s procedures. If you are authorized under §301-13.3(a) of this chapter to
have an attendant accompany you, your agency also may authorize the attendant to
use business-class accommodations if you require the attendant’s services en route; or
(d) Security purposes or exceptional circumstances as determined by your agency
make the use of business-class accommodations essential to the successful
performance of the agency’s mission; or




                                          57
(e) Coach-class accommodations on an authorized/approved foreign air carrier do not
provide adequate sanitation or health standards; or
(f) The use results in an overall cost savings to the Government by avoiding additional
subsistence costs, overtime, or lost productive time while awaiting coach-class
accommodations; or
(g) Your transportation costs are paid in full through agency acceptance of payment
from a non-Federal source in accordance with Chapter 304 of this title; or
(h) Where the origin and/or destination are OCONUS, and the scheduled flight time,
including stopovers and change of planes, is in excess of 14 hours. (In this instance you
will not be eligible for a rest stop en route or a rest period upon arrival at your duty site.);
or
(i) When required because of agency mission.

Note to §301-10.124: You may upgrade to business-class at your personal expense,
including through redemption of frequent flyer benefits.

Note: OMB Circular A-122 states that the difference in cost between first-class air
accommodations and less than first-class air accommodations is unallowable except
when less than first-class air accommodations are not reasonably available to meet
necessary mission requirements, such as where less than first-class accommodations
would (i) require circuitous routing, (ii) require travel during unreasonable hours, (iii)
greatly increase the duration of the flight, (iv) result in additional costs which would
offset the transportation savings, or (v) offer accommodations which are not reasonably
adequate for the medical needs of the traveler.

***

5. Travel Expense Waivers

LSC Policy

According to LSC’s Administrative Manual, The Comptroller is authorized to waive the
maximum lodging rate when circumstances indicate that additional allowances are
necessary and appropriate to cover expenses for the conduct of LSC business. For the
Office of the Inspector General staff the Inspector General is the authorizing authority. A
waiver of the maximum lodging rate must be requested in advance of travel. The
Comptroller will return a copy of the approved request or an explanation of the denial.
Administrative Manual, Part 5.III.C.

Federal Policy

Maximum daily per diem, which includes lodging, may be waived as follows:

Subpart D—Actual Expense

§301-11.300 When is actual expense reimbursement warranted?



                                              58
When:
(a) Lodging and/or meals are procured at a prearranged place such as a hotel where a
meeting, conference or training session is held;
(b) Costs have escalated because of special events (e.g., missile launching periods,
sporting events, World’s Fair, conventions, natural disasters); lodging and meal
expenses within prescribed allowances cannot be obtained nearby; and costs to
commute to/from the nearby location consume most or all of the savings achieved from
occupying less expensive lodging;
(c) Because of mission requirements; or
(d) Any other reason approved within your agency.

§301-11.301 Who in my agency can authorize/approve my request for actual expense?

Any official designated by the head of your agency.

§301-11.302 When should I request authorization for reimbursement under actual
expense?

Request for authorization for reimbursement under actual expense should be made in
advance of travel. However, subject to your agency’s policy, after the fact approvals
may be granted when supported by an explanation acceptable to your agency.

§301-11.303 What is the maximum amount that I may be reimbursed under actual
expense?

The maximum amount that you may be reimbursed under actual expense is limited to
300 percent (rounded to the next higher dollar) of the applicable maximum per diem
rate. However, subject to your agency’s policy, a lesser amount may be authorized.

§301-11.304 What if my expenses are less than the authorized amount?

When authorized actual expense and your expenses are less than the locality per diem
rate or the authorized amount, reimbursement is limited to the expenses incurred.

§301-11.305 What if my actual expenses exceed the 300 percent ceiling?

Your reimbursement is limited to the 300 percent ceiling. There is no authority to exceed
this ceiling.

§301-11.306 What expenses am I required to itemize under actual expense?

You must itemize all expenses, including meals, (each meal must be itemized
separately) for which you will be reimbursed under actual expense. However, expenses
that do not accrue daily (e.g., laundry, dry cleaning, etc.) may be averaged over the
number of days your agency authorizes/approves actual expenses. Receipts are



                                           59
required for lodging, regardless of amount and any individual meal when the cost
exceeds $75. Your agency may require receipts for other allowable per diem expenses,
but it must inform you of this requirement in advance of travel. When your agency limits
M&IE reimbursement to either the prescribed maximum M&IE rate for the locality
concerned or a reduced M&IE rate, it may or may not require M&IE itemization at its
discretion.




                                          60
                             C. Food and Entertainment

1. Working Meals

LSC Policy

Chapter 10, Meetings and Conference Rooms, of the current Administrative Manual
states:

          On those occasions when it is necessary for local meetings and
          conferences to extend through the lunch hour or evening meal
          time, LSC will pay for a modest meal for persons in attendance.

(LSC policy on meals is essentially the same both prior to and after the February 3,
2005 revision to the Administrative Manual.) Also, the current Personnel manual
provides for a meal allowance of up to $7.50 if an employee works until 8:00 pm or later
on a business day or if an employee works at least 3 hours on a weekend or holiday.
(Ref: Section 5, Appendix B, Paragraphs C3 and D3, March 8, 1997)

Federal Policy

It may be stated as a general rule that appropriated funds are not available to pay
subsistence or to provide free food to government employees at their official duty
stations (“at headquarters”) unless specifically authorized by statute. The “free food”
rule applies to snacks and refreshments as well as meals. The question of food for
government employees arises in many contexts and there are certain well-defined
exceptions. In extreme emergencies, the government may furnish free food to
employees at their official duty station. The exception, however, is limited. GAO
Redbook, p. 4-102.

The Government Employees Training Act (Training Act) authorizes agencies to “pay
…for all or a part of the necessary expenses of training,” 5 U.S.C. § 4109, and to pay
“for expenses of attendance at meetings which are concerned with the functions or
activities for which the appropriation is made,” 5 U.S.C. § 4110, regardless of whether
the event is held within the employees’ official duty station. The Comptroller General
has interpreted and applied the Training Act to accommodate the day-to-day realities of
governmental operations within the limits imposed by the statutes and has determined
that the Training Act permits agencies to pay for the costs of meals and refreshments at
meetings and training events under specific circumstances. The Government may pay
for meals at meetings and conferences. For day-to-day routine business meetings,
however, the Training Act does not provide authority to use appropriations to supply
food items. “Day-to-day” business meetings are meetings that involve discussions of the
internal procedures or operations of the agency. Meetings or conferences that are not
routine involve topical matters of general interest that might appeal to governmental and
nongovernmental participants. Attendance at routine agency-sponsored meetings will


                                           61
generally be subject to the prohibition on furnishing free food to employees at their
official duty stations. GAO Redbook, p. 4-107-115.

General operating appropriations also may be used to provide refreshments at award
ceremonies under the Government Employees’ Incentive Awards Act, 5 U.S.C.
§§4501–4506. 65 Comp. Gen. 738 (1986); B-271551, Mar. 4, 1997. This Act authorizes
an agency to use its operating appropriations to cover the “necessary expense for the
honorary recognition of” the employee or employees receiving the awards. 5 U.S.C.
§4503. The Act also directs the Office of Personnel Management to prescribe
regulations and instructions to govern agency awards programs. 5 U.S.C. §4506. GAO
Redbook p. 4-116-118.

***

2. Business Entertainment

LSC Policy

LSC’s Administrative Manual, Chapter 14 on Business Entertainment Expenses49
addresses meals provided for others as follows

       This section is limited to the occasions when an LSC Officer, Director, or Vice
       President in his or her official capacity entertains another person or persons on
       LSC business. The purpose of the entertainment must be to conduct LSC
       business and must be approved by the President or designee whenever possible
       prior to the occasion. The cost of the business entertainment will be reimbursed
       to the authorized employee up to an amount per person entertained of the per
       diem allowed for the city in which the business entertainment occurs.

While this section of the policy states that the purpose of the entertainment must be to
conduct LSC business, the Administrative Manual does not require that the business
necessity or the nature of the business be documented.

Federal Policy

GAO has stated “[e]ntertainment” as a business-related expense is an established
practice in the corporate sector. No one questions that it can be equally business-
related for a government agency. The difference—and the policy underlying the rule for
the government—is summarized in the following passage from B-223678, June 5, 1989:


49
  Prior to the February 2005 revisions to LSC’s Administrative Manual, LSC did not have a business
entertainment policy. However, the previous version of the Administrative policy did have a policy on
petty cash funds that addressed “representative expenses.” The policy required that the nature of the
expense and the names and business relationships of the guests be stated but it did not require that the
LSC business reason of the expense be documented.



                                                  62
      “The theory is not so much that these items can never be business-related,
      because sometimes they clearly are. Rather, what the decisions are really saying
      is that, because public confidence in the integrity of those who spend the
      taxpayers’ money is essential, certain items which may appear frivolous or
      wasteful—however legitimate they may in fact be in a specific context—should, if
      they are to be charged to public funds, be authorized specifically by the
      Congress.”

Another way of expressing this idea is found in the following passage from B-288266,
Jan. 27, 2003:

      “[R]eference to ‘common business practice’ is not in itself an adequate
      justification for spending public money on food or, for that matter, other objects.
      An expenditure of public funds must be anchored in existing law, not the
      practices and conventions of the private sector.”

GAO Redbook, p. 4-100.

There are some situations, however, in which the rule has not been applied, including
government corporations similar to LSC. For example, the Corporation for Public
Broadcasting, since it was established as a private non-profit corporation and is not an
agency or establishment of the U.S. government (notwithstanding that it receives
appropriations), could use its funds to hold a reception in the Cannon House Office
Building. B-131935, July 16, 1975. GAO Redbook, p. 4-101

***

3. Coffee, Water and Miscellaneous Items

LSC Policy

No specific policy noted.

Federal Policy

GAO has stated that the “no free food” rule applies to snacks and refreshments as well
as meals. For example, in 47 Comp. Gen. 657 (1968), the Comptroller General held
that Internal Revenue Service appropriations were not available to serve coffee to either
employees or private individuals at meetings. Similarly prohibited was the purchase of
coffeemakers and cups. Although serving coffee or refreshments at meetings may be
desirable, it generally is not considered a “necessary expense” in the context of
appropriations availability. See also B-233807, Aug. 27, 1990; B-159633, May 20, 1974.
GAO Redbook, p. 4-103. By way of contrast, it has long been conceded that drinking
water is a necessity. See 22 Comp. Dec. 31 (1915); 21 Comp. Dec. 739 (1915).
However, an agency may not use appropriated funds for bottled drinking water for the




                                           63
use of employees where the public water supply of the locality is safe for drinking
purposes. 17 Comp. Gen. 698 (1938). GAO Redbook, p. 4-119 fn. 70.

Purchase of decorative items for Federal buildings is covered in the Federal Property
Management Regulations, 41 C.F.R. §101.26.103-2 (2003). The regulations authorize
expenditures for pictures, objects of art, plants, flowers (both artificial and real), and
other similar items. However, such items may not be purchased solely for the personal
convenience or to satisfy the personal desire of an official or employee.
§ 101–26.103–2, restriction on personal convenience items, states:

      Government funds may be expended for pictures, objects of art, plants, or
      flowers (both artificial and real), or any other similar type items when such
      items are included in a plan for the decoration of Federal buildings
      approved by the agency responsible for the design and construction.
      Determinations as to the need for purchasing such items for use in space
      assigned to any agency are judgments reserved to the agency.
      Determinations with respect to public space such as corridors and lobbies
      are reserved to the agency responsible for operation of the building.
      Except as otherwise authorized by law, Government funds shall not be
      expended for pictures, objects of art, plants, flowers (both artificial and
      real), or any other similar type items intended solely for the personal
      convenience or to satisfy the personal desire of an official or employee.
      These items fall into the category of ‘‘luxury items’’ since they do not
      contribute to the fulfillment of missions normally assigned to Federal
      agencies.

There does not appear to be any authority for Federal agencies to use appropriated
funds to purchase flowers or other items for the death or illness of an employee or
relative.

***

4. Picnics and Holiday Parties

LSC Policy

No specific policy noted.

Federal Policy

Picnics and holiday parties generally would not be authorized under Federal
appropriations law. GAO advises, however, that otherwise improper expenditures may
be authorized under specific statutory authority and that Congress has long recognized
that many agencies have a legitimate need for items that otherwise would be prohibited
as entertainment, and has responded by making limited amounts available for official
entertainment to those agencies that can justify the need. GAO Redbook, p. 4-135.


                                           64
With two major exceptions (at the Departments of State and Defense), most agencies
follow a similar pattern and receive their entertainment funds, if they receive them at all,
simply as part of their annual appropriations. The appropriation may specify that it will
be available for “entertainment.” See, e.g., B-20085, Sept. 10, 1941. Far more
commonly, however, the term used in the appropriation is “official reception and
representation (R&R).” This has come to be the technical “appropriations language” for
entertainment. GAO Redbook, p. 4-136.

An agency has wide discretion in the use of its R&R appropriation. 61 Comp. Gen. 260,
266 (1982); B-212634, Oct. 12, 1983. GAO Redbook, p. 4-138. Accordingly, R&R
funds have been found available for a holiday party for government officials and their
spouses or guests. 61 Comp. Gen. 260 (1982), aff’d upon reconsideration,
B-206173(2), Aug. 3, 1982.         Notwithstanding the discretion it confers, an R&R
appropriation is not intended to permit government officials to feed themselves and one
another incident to the normal day-to-day performance of their jobs. GAO Redbook, p.
4-140.




                                            65
D. Other Costs

1. Severance Pay

LSC Policy

Section 4.7 of the Personnel Manual provides that employees have no right to
severance pay upon termination, except as required by law. However, the Corporation
may offer severance pay or other financial incentives to employees facing termination
when it serves Corporation interests to do so. Specific guidelines and procedures may
be established for offering severance pay and related incentives. Current guidance is
contained in this Section, Appendix B. Any specific offer(s) must be approved in
advance by the President.

Appendix B states as follows:

      A. Calculation of Severance Pay:

      In the event severance pay is offered, it will be calculated as follows:

             1. Regular employees with at least one year of service who
                are terminated because of a reduction-in-force or for a
                position being canceled, will be compensated one week's
                base pay for each full year of continuous service. Periods
                of leaves of absence will be included in the calculation of
                years of service.
             2. Employees who are over 40 years of age upon
                termination are entitled to an age adjustment allowance.
                This allowance is equal to an additional ten per cent of
                the basic severance pay allowance for each year the
                employee's age exceeds 40 years. In computing the
                number of years of age over 40, the Corporation shall
                credit an employee with 25 per cent of a year for each
                three months that the employee's age exceeds age 40.
             3. Severance pay will be paid in addition to compensation
                for any unused accrued vacation time. Accrued sick
                leave will not be compensated.
             4. An employee who leaves the Corporation voluntarily or is
                terminated for other than cancellation of a position or a
                reduction-in-force will not be eligible for severance pay
                except in certain exceptional circumstances upon
                approval by the President.

Note: For OIG employees, the Inspector General is the approving official.




                                           66
Federal Policy

If an employee is otherwise eligible to separate as a result of a reduction-in-force and
similar reasons, they are entitled to one week of pay at the rate of basic pay for the
position held by the employee at the time of separation for each full year of creditable
service through 10 years, and two weeks of pay at the rate of basic pay for the position
held by the employee at the time of separation for each full year of creditable service
beyond 10 years.

Note: OMB Circular A-122 advises that “[c]osts incurred in certain severance pay
packages (commonly known as “a golden parachute” payment) which are in an amount
in excess of the normal severance pay paid by the organization to an employee upon
termination of employment and are paid to the employee contingent upon a change in
management control over, or ownership of, the organization’s assets are unallowable.”

***

2. Locality Pay

LSC Policy

Although LSC’s current Personnel Manual does not specifically address “locality pay,”
Section 5.5 (A) of the Manual discusses the concept of locality pay under the heading of
“Comparability Adjustments” as follows:

      In order to retain fair, equitable, and competitive salary rates, the
      compensation schedule will be reviewed annually by OAHR. This review
      will take into consideration salaries paid comparable jobs in the
      Washington, D .C. labor market and other information. Based on this
      review, the Director of OAHR may recommend to the President a
      comparability adjustment in the respective pay bands. If approved, this
      percentage change will, in turn, be reflected directly in all employee
      salaries. Thus, for example, a 2.1 percent comparability adjustment would
      automatically increase each employee’s salary by 2.1 percent.

A draft of the revised Personnel Manual was transmitted to the Inspector General from
the Chief Administrative Officer on April 26, 2006. According to the transmittal
memorandum the draft personnel manual includes revisions that incorporate current
practices and new policy in a few areas. Section 7.4 (A) of the draft Personnel Manual
addresses locality pay as follows:

“In addition to base salary, LSC pays locality pay, which is designed to help address a
gap between Federal and non-Federal salaries in the Washington, D.C. metropolitan
area…. The annual percentage of increase in locality pay for Federal employees is
based on surveys of various metropolitan statistical areas throughout the U.S. LSC has
adopted the use of locality pay to help bring its salaries in line with Federal government


                                           67
and the private sector in the metropolitan area and to make it a more competitive
employer. The percentage of locality pay paid to LSC employees is set by the
President, however, locality pay for the President is set by the Board of Directors.”

Federal Policy

The Federal Employees Pay Comparability Act of 1990 (FEPCA) established a locality
pay system for General Schedule (GS) employees which was implemented in January
1994. It provides for pay adjustments based on survey comparisons with non-Federal
rates on a locality basis. Its goal was to narrow the pay gap between Federal and non-
Federal salaries over a nine-year period and is payable within each locality determined
to have a pay disparity greater than 5 percent. Under FEPCA, all employees in an area
receive the same percentage locality raise based on the difference between the
average Federal salary and the average nonFederal salary in the area. In other words,
the government combines information for grades and occupations to come up with one
raise for all employees. Under that system, employees at some grades and
occupations in an area will have salaries that are higher or lower than those of their
non-Federal counterparts.

                                        # # #




                                          68
Office of Inspector General
Legal Services Corporation
3333 K Street NW, 3rd Floor
  Washington, DC 20007
      www.oig.lsc.gov
